<html>
<title> - ROLE OF HUMAN FACTORS IN RAIL ACCIDENTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                ROLE OF HUMAN FACTORS IN RAIL ACCIDENTS 

=======================================================================

                                (110-18)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                    MARCH 16, 2007 (San Antonio, TX)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                     U.S. GOVERNMENT PRINTING OFFICE

34-789 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)



     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida, Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
JULIA CARSON, Indiana                WAYNE T. GILCHREST, Maryland
GRACE F. NAPOLITANO, California      STEVEN C. LaTOURETTE, Ohio
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               GARY G. MILLER, California
BRUCE L. BRALEY, Iowa                HENRY E. BROWN, Jr., South 
TIMOTHY J. WALZ, Minnesota           Carolina
NICK J. RAHALL II, West Virginia     TIMOTHY V. JOHNSON, Illinois
PETER A. DeFAZIO, Oregon             TODD RUSSELL PLATTS, Pennsylvania
JERRY F. COSTELLO, Illinois          SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JIM GERLACH, Pennsylvania
ELIJAH E. CUMMINGS, Maryland         MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            LYNN A. WESTMORELND, Georgia
DANIEL LIPINSKI, Illinois            JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                 (iii)




















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Berriozabal, Maria, Former San Antonio City Council Member.......    25
Chipkevich, Bob, Director of the Office of Railroads, Pipelines, 
  and Hazardous Materials Investigations, National Transportation 
  Safety Board...................................................     3
Cothen, Jr., Grady C., Deputy Associate Administrator for Safety, 
  Standards, and Program Development, Federal Rail Administration     3
Fritz, Lance, Vice President-Southern Region, Union Pacific 
  Railroad.......................................................    25
Hardberger, Phil, Mayor of the City of San Antonio, Texas........    17
Velasquez, Ralph, Community Advocate Injured at the Macdona 
  Accident.......................................................    25
Villarreal, Michael, State Representative........................    25
Wolff, Nelson, Bexar County Judge................................    17

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    57
Gonzales, Hon. Charles A., of Texas..............................    61

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Berriozabal, Maria Antonietta....................................    70
Chipkevich, Bob..................................................    73
Cothen, Jr., Grady C.............................................    83
Fritz, Lance.....................................................   103
Hardberger, Phil.................................................   107
Vegasquez, Ralph.................................................   110
Villarreal, Michael..............................................   117
Wolff, Nelson W..................................................   120

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



              THE ROLE OF HUMAN FACTORS IN RAIL ACCIDENTS

                              ----------                              


                         Friday, March 16, 2007

                   House of Representatives
     Committee on Transportation and Infrastructure
       Subcommittee on Railroads, Pipelines, and Hazardous 
                                                  Materials
                                                   San Antonio, TX.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
City of San Antonio City Council Chamber, Municipal Plaza 
Building, 103 South Main Avenue, San Antonio, Texas, Corrine 
Brown, [chairwoman of the subcommittee] presiding.
    Ms. Brown. Will the subcommittee please come to order. Good 
morning. I'm Congresswoman Corrine Brown, and will the 
Subcommittee on Railroads, Pipelines, and Hazardous Materials 
Field Hearing on the Role of Human Factors in Rail Accidents, 
March 16, 2007, officially come to order.
    I want to say good morning, and I want to welcome our 
distinguished panelists and guests in today's hearing on the 
Role of Human Factors in Rail Accidents. I want to thank 
Congressman Gonzalez for inviting us, and for hosting us in 
this great city. Thank you.
    Congressman Gonzalez testified at one of a series of safety 
hearings that the subcommittee held this Congress. He made it 
clear that the people in San Antonio was extremely concerned 
about the large number of train accidents that have occurred in 
their community, and want to work with the Federal Railroad 
Administration and the National Transportation Board, and the 
railroads to provide solutions to the problems.
    Our subcommittee has held several hearings on safety and 
fatigue in the rail industry, and is in the process of 
developing legislation that will address training, fatigue, and 
other human factors, which constantly rank as one of the top 
two causes of all rail accidents each year, and accounts for 
approximately 40 percent of all rail accidents annually.
    Congress last passed legislation to re-authorize the FRA in 
1994. That authorization expired in 1998. Since that time, the 
railroad industry have changed, economic growth, and an 
increase in international trade have led to record traffic 
levels. Unfortunately, that has put a lot of pressure on our 
rail system, and had a significant impact on work and public 
safety.
    According to the FRA, there were 2,835 train accidents in 
2006, which resulted in six fatalities, and 172 injuries. 
Twelve percent of those accidents, or 342 train accidents, 
occurred in Texas, the highest number of train accidents among 
all of the states. But I believe that working together with all 
the stakeholders, the federal government, the state, the 
railroad, the workers, and the local communities, we can 
improve safety and security in the rail industry.
    Again, I want to thank the Congressman from this area, and 
the City of San Antonio for hosting this important hearing on 
rail safety. I'm looking forward to everyone's testimony today.
    Before I yield to Mr. Gonazalez for an opening statement, I 
ask unanimous consent for Mr. Gonzalez, and any other Member of 
the House, who wish to participate in today's hearing to sit 
and ask questions of the witness. Without objection. So 
ordered. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Madam Chairwoman, and 
it's an honor to welcome you here to San Antonio. I know that I 
speak for all the elected officials and the citizens in San 
Antonio, that you found that this was something that was 
meritorious, that brings the subcommittee that you chair to our 
wonderful city, to address a problem that obviously has come to 
the very forefront in the past few years.
    I would like to request permission at this time to submit 
my full written statement into the record.
    Ms. Brown. Without objection.
    Mr. Gonzalez. Thank you very much, and I really would like 
just to move on with some of the testimony. I know that our 
colleague and dear friend, Congressman Ciro Rodriguez, who also 
represents part of San Antonio, and shares to the same degree 
that I do, the concern regarding rail safety, not just in San 
Antonio, but throughout the United States, so I welcome you, 
and I join you in this endeavor in seeking answers and remedies 
to those problems that we have, that have resulted in these 
accidents, not, again, just in San Antonio, but with some 
frequency in San Antonio, but the rest of the nation. And I 
yield back.
    Ms. Brown. Thank you, and Congressman Rodriguez.
    Mr. Rodriguez. Chairwoman Brown, let me, first of all, 
thank you for coming to San Antonio, and I hope you have an 
opportunity to stay here a few days. I want to also thank you 
for, not only your leadership as Chairman of this committee, 
but I also want to thank you for your leadership, because I 
know that you are also on the Veterans Committee, and you 
played a very significant role there in terms of the struggles 
that we've had in terms of funding the VA. So I want to 
personally thank you, and the relationship that I had with you 
when we both sat together in that committee.
    I, also, just want to indicate to you that I sit on the 
Appropriations Committee and the Subcommittee on 
Transportation. And we've had, also, some hearings on rail, and 
there's no doubt that there's a need for us to re-examine, and 
see how we can participate, and how we can help in the process 
of preventing the multitude of accidents. And I think you've 
outlined a good 2,600 throughout the country, and the fact that 
there's a disproportional number here in this state. So, once 
again, I do want to thank you.
    And I, also, just want to indicate to you that my District 
runs for 700 miles through the border to El Paso. I have a 
meeting in approximately an hour and a half in Uvalde, so I'm 
going to be leaving, but I do want you to spend your money 
here. Okay? Thank you.
    [Laughter.]
    Mr. Rodriguez. Thank you very much.
    Ms. Brown. Thank you. Now, before we begin, several of the 
people in the audience have asked that they have an opportunity 
after the hearing to make testimonies or comments. And I am 
amenable after the witnesses that we have invited, if the staff 
would have them to sign-up, but we're going to keep with the 
rules of the House, and those rules are one minute. So you will 
get one minute, an opportunity to make your presentation, if 
you have some presentations or comments, and then you can 
follow-up with written comments.
    Okay. Without objections.
    Who is the staff person who's going to get those names? 
Okay. Thank you.
    We are pleased to have a distinguished panel of witnesses 
this morning. Before I introduce them, I ask unanimous consent 
to allow 14 days for all members to revise and extend their 
remarks, and to permit the Subcommittee for additional 
statements and materials by members and witnesses.
    Without objection. So ordered.
    I want to welcome Mr. Cothen, who is the Deputy Associate 
Administrator for Safety, Standards, and Program Development 
for the Federal Railroad Administration. He has brought with 
him some experts from the FRA to help answer questions. 
Welcome.
    Next, we have Mr. Chipkevich, who is the Director of Office 
of Railroads, Pipelines, and Hazardous Materials Investigations 
at the National Transportation Safety Board.
    Let me remind the witnesses, they are under committee 
rules. They must limit their oral statements to five minutes, 
but the entire statement will appear in the record. I recognize 
Mr. Cothen.

      TESTIMONY OF GRADY C. COTHEN, JR., DEPUTY ASSOCIATE 
 ADMINISTRATOR FOR SAFETY, STANDARDS, AND PROGRAM DEVELOPMENT, 
 FEDERAL RAIL ADMINISTRATION; AND BOB CHIPKEVICH, DIRECTOR OF 
  THE OFFICE OF RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS 
      INVESTIGATIONS, NATIONAL TRANSPORTATION SAFETY BOARD



    Mr. Cothen. Thank you, Madam Chairwoman, and Congressman 
Gonzales, also Congressman Rodriguez.
    On behalf of Secretary Peters and Administrator Boardman, 
let me express the appreciation of the Department of 
Transportation for your invitation to participate in this Rail 
Subcommittee Field Hearing.
    Our thanks, as well, for your role in the introduction by 
request to the Department's Rail Safety Re-authorization Bill, 
H.R. 1516.
    With me today are Bonnie Murphy, our Regional Administrator 
for Region 5, headquartered in Fort Worth, and Robert 
Castiglione, our Deputy Regional Administrator, and, by the 
way, proud son of San Antonio. They can help me answer any 
questions that you may have this morning.
    At the outset, let me note that despite the difficult 
experience that San Antonio, Bexar County, and nearby 
communities have had over the past several years, there is 
positive news that should bode well for the future, wherever we 
live. Specifically, based on preliminary numbers for 2006, last 
year's train accident rate for the nation was at an all-time 
low. The total of train accidents was also down from 2005, 
nationally, and as you have noted, for the State of Texas, but 
we can do better.
    The theme of this hearing is Human Factors. As the 
Secretary's National Rail Safety Action Plan emphasizes, over 
the past few years, human factors have been responsible for 
more train accidents than any other major category. And human 
factors also play a predominant role in employee casualties, 
and on-the-job incidents. So what are we doing?
    Very quickly, to summarize just the items that I can fit 
in. First, to ensure that rules are clear, and that everyone is 
accountable for compliance. FRA issued last fall a notice of 
proposed rule making on Railroad Operating Rules. This proposal 
would address three major areas of Operating Rules compliance, 
which are responsible together for one-half of all human factor 
train accidents, including handling of switches. It will also 
ensure that managers and supervisors are actively conducting, 
and that they're learning from their Programs of Operational 
Testing, that evaluate rules compliance on the ground, and in 
the cabs, where the work is done.
    We're currently seeking resolution of comments to the 
Railroad Safety Advisory Committee, will issue a final rule 
later this year.
    Second, we're maintaining a clear focus on training. This 
has always been an FRA emphasis, but just last week, we 
concluded a series of meetings with Labor and Management 
regarding the Railroad's training programs for remote control 
operators. The agreements we reached last week will result in a 
thorough review of the Railroad's programs, to ensure that 
standards for practice and proficiency are sufficient, and that 
they're applied in the field.
    Third, we're working to build a positive safety culture in 
the railroad industry. Together with Labor and major railroads, 
FRA has launched the confidential Close Call Reporting Program, 
with an initial pilot in North Platt, Nebraska. And we're 
working with three additional railroads to get pilots in place.
    DOT's Rail Safety Re-authorization Bill proposes to build 
on this concept with a broader risk reduction program that 
would seek to identify areas of hazards before accidents occur, 
and encourage railroads to address them rapidly.
    Fourth, FRA's moving beyond its pioneering efforts in 
control of alcohol and drugs of abuse to a broader concern for 
overall fitness to perform the duties of safety critical jobs. 
The Railroad Safety Advisory Committee has established a 
Working Group on Medical Standards for Safety Critical Railroad 
Employees, and that group is off to a strong start. But to be 
rested, we must have the opportunity to rest. Our Rail Safety 
Re-authorization Bill asks for regulatory authority over hours 
of service. After 100 years of checking some of the worst 
abuses, the Hours of Service Act needs to give way to science-
based fatigue management.
    We have the tools we need to implement that authority, 
Madam Chairwoman, including a fatigue model newly validated 
with the help of Railroads and Labor, but we need to ensure 
that knowledge is applied. This is not an issue exclusively for 
collective bargaining, because communities are threatened by 
the accidents that can occur.
    Finally, we're promoting the use of technology to re-
engineer job requirements, and provide a safety net when humans 
err. Positive Train Control is a reality on high-speed 
passenger lines in the United States, but the road to 
affordable PTC from general freight system has been a very long 
one.
    In December of 2006, FRA approved the Product Safety Plan 
for the first freight railroad PTC system under a performance-
regulation that we issued in March of 2005. The BNSF Electronic 
Train Management System is now approved for revenue service in 
its initial configuration, and the three other major freight 
railroads are working on their own versions.
    Working with FRA, BNSF has also taken a leadership role 
developing the Switch Position Monitoring System for non-signal 
territory. Just this week, FRA placed into clearance a proposed 
rule to facilitate introduction of electronically controlled 
pneumatic brakes. ECP brakes will make the locomotive 
engineer's job much more reasonable by eliminating the risk of 
inadvertently depleting the train air line, which is used to 
command brake applications, and by giving the engineer a better 
tool for train handling. The nation will benefit by reducing 
fossil fuel use, and diesel emissions.
    Let me close with a local focus, because in the end, Madam 
Chairwoman, that's where we all live, including FRA and 
participating state safety personnel, who endeavor to address 
these issues every working day.
    Beginning with the fatality in Remote Control Service in 
late 2003, San Antonio, Bexar County, and surrounding 
communities experienced an usual number of severe events that 
brought us to this place and time. If there's any organizing 
principle that might be assigned to these events, particularly 
in 2004, it was that supervisors and workers were stressed by 
heavy workloads, and long hours. And the railroad could not 
adjust fast enough to change circumstances.
    As Acting Associate Administrator for Safety, I personally 
responded to the Crystal Cold Storage Facility in November of 
2004, where a fatality to a contractor in that private business 
had just occurred.
    Bonnie Murphy and I then conducted a very short, intensive 
negotiation with the Union Pacific with an agreement to address 
oversight of Operating Rules Compliance on the San Antonio 
service unit. We used similar agreements to handle similar 
issues on two other services units in the region.
    The lessons we learned in that process have flowed into the 
proposed rule that I've already described, so that we reduce 
the possibility of ever going down that road again.
    A great deal more has happened in San Antonio over the past 
several years. UP added staff and facilities, a local fatigue 
study funded by FRA heightened awareness among people here in 
San Antonio. Presently, UP and its employees in the San Antonio 
service unit are engaged in an innovative peer-to-peer 
observation program funded by FRA, and UP has already decided 
to extend it two other terminals. But we know more work needs 
to be done.
    The most recent accident of concern in this area occurred 
in October of 2006, and resulted in damage to two local 
residences. Our investigation showed that it was caused by 
excessive dynamic braking, that resulted from the failure to 
set up the locomotives properly, in accordance with UP's 
special instructions, and failure to provide locomotive crews 
with information concerning the number of axles a dynamic 
breaking in effect, something we require by regulation.
    We're processing enforcement actions, and the railroad has 
taken a number of steps to prevent a reoccurrence. In November, 
FRA inspectors and UP managers conducted the first of a series 
of joint operating testing audits in UP's southern region, and 
they started right here in San Antonio. That effort is going to 
continue at least through September.
    Sometimes lost in the story is the number of times that 
railroads and their employees get it right. And the broad range 
of initiatives that we're undertaking together to drive down 
risk associated with rail transportation, we do believe that 
with continued effort, we'll see additional reduction in 
accidents, injuries, and we're confident that progress will be 
evident here and across the nation.
    Thank you, Madam Chairwoman.
    Mr. Chipkevich. Good morning, Chairwoman Brown, and Members 
of Congress. Thank you for the opportunity to testify today on 
Human Factors in Rail Accidents.
    Since 2001, the Safety Board has investigated 29 railroad 
accidents involving train collisions, and over-speed 
derailments. Most occurred after train crews failed to comply 
with train control signals, failed to follow Operating Rules in 
non-signaled or dark territories, or failed to comply with 
other specific Operating Rules, such as returning track 
switches to normal positions after completing their work.
    Our accident investigations have identified human 
performance failures related to fatigue, medical conditions, 
such as sleep apnea, and the use of cell phones. We've 
repeatedly concluded that technological solutions, such as 
Positive Train Control systems, have great potential to reduce 
the number of serious train accidents by providing safety 
redundant systems to protect against human performance 
failures. The objective of Positive Train Control is to prevent 
trail collisions and over-speed accidents by requiring 
automatic control systems to override mistakes by human 
operators.
    We are pleased that today several railroads are moving to 
develop Positive Train Control systems, and although we are 
encouraged with progress underway by some railroads, we note 
that Positive Train Control systems are needed across the 
entire country.
     FRA certification requirements for locomotive engineers 
focus on specific vision and hearing acuity standards, but do 
not provide guidance regarding medical conditions that should 
be considered in the course of an examination. We've 
recommended that the FRA develop a standard medical examination 
form that includes questions regarding sleep problems, and 
require that the form be used to determine the medical fitness 
of locomotive engineers, and other employees in safety-
sensitive positions.
    In 2002, two trains collided head-on near Clarendon, Texas. 
The engineer of one train had used his cell phone for two 
personal calls the morning of the accident, one for 23 minutes, 
and the second call for 10 minutes. He was on the second call 
as he passed the location at which he should have stopped and 
waited for the arrival of another train. The Safety Board does 
not share the FRA's confidence that the railroad industry has 
taken sufficient steps to prevent the use of cell phones for 
personal matters, when crew members should be attending to the 
operation of the train, and has recommended that the FRA 
promulgate appropriate regulations.
    Dark territory presents a unique problem for rail safety. 
In dark territory, there are no signals to warn trains as they 
approach each other, and the avoidance of collisions relies 
solely on dispatchers and train crews adhering to Operating 
Procedures.
    The Board has recommended that the FRA prohibit the use of 
after-arrival track warrants for train movements in dark 
territory not equipped with Positive Train Control System.
    In early 2005, a train encountered an improperly positioned 
switch in Graniteville, South Carolina. It went from the main 
line onto an industry track, where it struck a parked train 
head-on. The track was in dark territory, and nine people died 
from chlorine gas inhalation.
    Later that year, a train entered a siding in Shepherd, 
Texas, and struck a parked train head-on, killing a crew 
member. Again, the track was in dark territory. And, again, the 
previous crew failed to return the main track switch to the 
normal position after they had secured their train on the 
siding.
    Measures beyond additional Operating Rules, forms, or 
penalties are needed. The Safety Board has recommended that 
railroads install an automatically activated device that would 
compelling capture the attention of employees involved in 
switch operations, and clearly convey the status of the switch. 
In dark territory, and in the absence of switch position 
indicator lights or other automated systems, trains should be 
operated at speeds that will allow them to be safely stopped in 
advance of misaligned switches.
    Finally, because of the time that it will take to design 
and construct improved tank cars, the Safety Board believes 
that the most expedient and effective means to reduce public 
risk from highly poisonous gases in train accidents is for 
railroads to implement operational measures that will minimize 
the vulnerability of tank cars transporting these products.
    Madam Chairman, this completes my statement. I'll be happy 
to answer any questions.
    Ms. Brown. Thank you. I guess I want to go right to one of 
the questions pertaining to the cell phones. Why hasn't the FRA 
adopted federal regulations that prohibit a locomotive engineer 
from using a cell phone while at the control of a moving train?
    Mr. Cothen. Madam Chairwoman, we have discussed this issue 
in some depth at the Railroad Safety Advisory Committee, at the 
Full Committee, and with the Board. This is one of those things 
that I think we can all agree on, in principle. If we could get 
some of our friends out on the streets in Washington, D.C., and 
in San Antonio not to use their cell phones while they're 
driving, we'd all be a lot safer. And the same things goes for 
a locomotive cab.
    One of the issues we have from a FRA standpoint is how do 
you enforce? And, as a practical matter, because train and 
engine crews are self-supervising, it's very difficult to 
enforce that kind of requirement from a federal standpoint, 
except after-the-fact. And by then, needless to say, it's too 
late.
    However, we're not through in terms of working this issue 
with the Board. Our Railroad Safety Advisory Committee, 
Railroad Operating Rules Working Group, when it gets through 
with the rule that I talked to you about, is going on to Board 
recommendations on after-arrival orders, and cell phones. We're 
going to talk about some other issues that we've got live with 
that group, as well. And we commit to the committee that we're 
going to look at it thoroughly, and do what's required.
    Ms. Brown.Would you like to respond to that?
    Mr. Chipkevich. Thank you. Nothing specific, other than we 
do believe that there are means that can be found to enforce 
that requirement. And, certainly, as we've seen in that 
particular accident, it is a distraction to crews. It may 
inhibit one crew member from talking to another crew member, 
and not wanting to bring something up because they're on the 
phone, and interrupting, and we think it's an important issue.
    Ms. Brown. My understanding is that mic in the center is 
also working at this time, so you can use the mic at the 
podium, or the hand mic. Okay.
    The FRA has told the NTSB that developing guidelines for 
local skill development, and that contribute to good situation 
awareness, is worthy of consideration. But says that it did not 
currently have funds available, and it will try to identify 
resources to undertake this work. Have you done that, and why 
don't you ask for the funding in your re-authorization 
proposal?
    Mr. Cothen. Madam Chairwoman, that comes out of Research 
and Development budget. My understanding, that the funds are 
currently obligated. We do believe it's an important task. FRA 
has a simulator in Cambridge at the Volpe National 
Transportation System Center, provides a platform for doing 
this kind of program development, and we're going forward.
    Ms. Brown. Would you stay there. Just, in reviewing the 
2006 safety figures, it seemed that the accidents caused by 
track defect supplants accidents caused by human factors. Why 
did this occur, and what is the FRA doing to prevent accidents 
caused by track defects?
    Mr. Cothen. It's absolutely correct. In 2006, we actually 
saw a reversal, as a result of the numbers going down in the 
Human Factors category, and the track category is the 
predominant category, again.
    The Federal Railroad Administration has ordered a second, 
and a third track geometry vehicle. We've got delivery of that 
second vehicle, and the third is on its way, so that we can do 
track geometry evaluation across the core of the National Rail 
System on a more current basis. And, thereby, quality control 
the efforts of the railroads, themselves. We're also, as 
always, working energetically on enforcement of the Track 
Safety Standards.
    This year, the Congress gave us, and we thank you, nine new 
positions for Rail Integrity Specialists under the President's 
budget request, and we're working now to fill those positions. 
And what we'll do there is to build a more effective program to 
deal with broken rail derailments. That's the category of main 
line track-caused accidents that's going to be our biggest 
issue in the coming years. So we know we've got to get more 
traction there, and thank you for giving us the resources to do 
it.
    Ms. Brown. Okay. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Madam Chair. My first 
question would be to, is it Cothen? How do you pronounce the 
last name?
    Mr. Cothen. It's Cothen, just a short O.
    Mr. Gonzalez. Cothen. Mr. Cothen, of course, I was 
introduced to the whole regulatory scheme on railroads as a 
result of the accidents that have transpired in the past few 
years.
    One thing that I want to point out, is we do have a 
relatively new administrator. The individual we worked with in 
the past, when we had the more serious accidents, as opposed to 
the administrator we have today, and that is Mr. Boardman. Is 
that correct?
    Mr. Cothen. Yes, sir.
    Mr. Gonzalez. And how long has Mr. Boardman been the 
administrator of the Federal Railroad Administration?
    Mr. Cothen. He joined us in the summer of 2005.
    Mr. Gonzalez. And I do want to say, and acknowledge from 
the outset, that he has been much more responsive, timely, and 
substantively, also, to some of our inquiries and requests.
    I've reviewed some materials that have been provided by the 
committee for background in my previous testimony in 
Washington, and it's something that I always sensed was 
occurring when it came to the FRA in my previous experiences. 
And I'm not indicating that Mr. Boardman shares some of that 
particular history, but what I believe has been, basically, a 
culture within the FRA and the relationship with the railroads 
that I think did impact its ability to regulate in a manner 
that promoted safety. And this is what I'm going to allude to 
at this time. And I'm going to read from the information that 
was provided me some time ago.
    ``Central to the success of the Federal Rail Safety Program 
is the ability to understand the nature of rail-related 
accidents, and to analyze trends in railroad safety. To do 
this, the FRA relies heavily on information that is reported by 
the railroads following accidents and incidents.''
    I always felt that there was an over-dependency as far as 
the fact-finding duties performed by FRA, based on information 
provided by the railroads. That's been a concern, and I will 
ask you a question on that in a minute.
    Further, railroad accident reports, ``The FRA does not 
routinely review locomotive event recorder data, police 
reports, and other sources of information to determine the 
causes of the collisions, or the need for further 
investigation.''
    So my question goes to, do we still have that reliance base 
when you investigate, or decide to investigate accidents, based 
almost totally on information that is provided you by the 
railroads?
    Mr. Cothen. I don't think so, Congressman. We get a lot of 
help from our friends. Mr. Chipkevich and his colleagues at the 
National Transportation Safety Board provide an objective 
perspective on major accidents, as they occur.
    People on our staff, like the colleagues that I've 
introduced to you today, bring to us a railroad background. Try 
to sell them a line of goods, and you're going to find yourself 
coming up short real quick, because they know how things 
operate out on the railroad.
    FRA does its own accident investigations. We do over 100 
assigned investigations a year for major events, and the 
regions, themselves, elect to do additional investigations, at 
greater or lesser depth, as required by the circumstances.
    And, finally, we've got rail labor representatives in the 
hall today, and they're not at all reluctant to pick up the 
phone and call us. They have my cell phone number, Joe Strang, 
who is our Associate Administrator, cell phone number. And if 
something is transpiring out on the property that's seriously 
amiss, we find out about it pretty quick.
    Now, having said that, we're about 500 people in the field, 
about 400 inspectors with territories, and this is a national 
rail system that employs 235,000 people, operates over about 
150,000 route miles. And we've got over 200,000 grade 
crossings, and it generates an awful lot of work. So we try to 
stay on top of it, and I think we do.
    You asked the question about grade crossing collisions, and 
there's been a lot of public interest in that. And we work 
carefully with our office of Inspector General. They have 
actually been doing audits of our grade crossing program now 
continuously, in terms of having an open audit, I think it's 
correct to say for over four years. The reports that they 
produce are worth reading. They're now finalizing a report, 
again, on accident reporting in this area. And what we've been 
able, I think, to demonstrate to them as a result of audits we 
have done of the railroad's own accident reporting systems; we 
go on the property, and we check the police records, and we 
check the Op Center records, and we compare that with what we 
got in, and so forth, is that, substantially, we're getting the 
reports.
    Now having said that, having said that, it is always the 
case that any database is going to have imperfections in it. 
And when we sit down with the Railroad Safety Advisory 
Committee, for instance, with a batch of train accidents, go 
over them and say what does this mean in terms of what we 
should do for rule making, you're going to have somebody from 
the same railroad that did the report saying that's not right. 
There's a detail wrong here, and we need to fix that, because 
it's a massive effort, gathering up that kind of data. So I 
don't want to mislead you on either side. I don't want to tell 
you we know everything that's happening everywhere, all the 
time, because that's physically impossible. But I think we 
have, overall, a good handle on what's transpiring in the 
railroad industry.
    Mr. Gonzalez. And there's going to be another Inspector 
General report coming out regarding investigative practices by 
the FRA.
    Mr. Cothen. Yes, there is. We've been talking to them about 
recommendations, and the last we saw of their draft 
recommendations, they look pretty good.
    Mr. Gonzalez. And the reason, again - and this information, 
again, is based on previous reports by the IG. ``The Inspector 
General also found that the FRA investigated few accidents. It 
investigates two-tenths of 1 percent of all accidents and 
incidents involving railroads, and recommended few findings of 
violations for critical safety defects identified through those 
inspections.'' So I'm going--the jury is out on this new 
report, and I'll wait to read that, with the assistance of the 
Chairwoman here.
    One last thing is just an observation. If you've identified 
cell phone use as the culprit in some of these accidents, and 
you're saying enforcement would be difficult, have you 
already--it wasn't clear to me, have you already established a 
rule, recommended a rule, promulgated a rule that simply says 
no cell phone use, period? I mean, we have laws in different 
states and cities that prohibit the use of cell phones while 
you're driving. I mean, it's an absolute prohibition. How it's 
enforced is one thing, but I assure you that it definitely has 
some affect on the use of cell phones by drivers of 
automobiles.
    Mr. Cothen. And I understand what you're saying. What we've 
done is we've ascertained that the railroads, themselves, have 
established appropriate limitations on use of cell phones. And, 
you know, railroad employees are very often issued company cell 
phones, because railroad radio channels are so congested. You 
need to have multiple means of communication, in order to talk 
to the dispatcher, the trouble desk, whatever the issue may be. 
So the cell phones are going to be in the cab, and nobody is 
going to be inspecting people's grip to see if the personal 
cell phone is in there. But I understand exactly what you're 
saying about the notion of the moral as suasion attached to an 
official prohibition. And that's precisely what we've got to 
look at, and make a decision on.
    Mr. Gonzalez. You know, my suggestion is you simply get 
tied up, and there's no tolerance, and no understanding or 
accommodation. I think it just has to be an absolute. I think 
you're going to see some results. And, again, I just want the 
FRA to be more aggressive in its recommendations and rule 
making. But I do thank you for your participation here, and I 
look forward to working with you in the future. And I really 
appreciate your indulgence. Obviously, we've had these 
questions going for some time here in this area, and I would 
direct the questions to the second witness, and that is, is it 
Chipkevich?
    Mr. Chipkevich. Yes, sir.
    Mr. Gonzalez. Pretty close. Right?
    Mr. Chipkevich. Yes, sir. Thank you.
    Mr. Gonzalez. For the benefit of the audience, your 
relationship to the FRA, National Transportation Safety Board. 
We read about you all the time when there are accidents 
regarding airliners, and such, but what is your relationship? 
What service do you provide in a couple of sentences, so 
everybody understands.
    Mr. Chipkevich. NTSB is an independent agency, not 
associated with the FRA or the Department of Transportation, at 
all. And we report directly to the U.S. Congress, and do 
independent accident investigations. We don't regulate the 
industry, so we look at what are factors that caused an 
accident, and what are factors that need to--or solutions that 
need to be made to prevent future accidents.
    Mr. Gonzalez. Regarding recommendations, and I've always 
been very impressed by your staff, by the way, when we've had 
our inquiries and our discussions. There are many people in San 
Antonio, to be frank with you, were pretty disappointed with 
the findings regarding the Macdona accident, in which we had 
some residents die as a result of the chlorine spill and cloud, 
as well as the conductor on that train, because you found that 
it was human error, and such. And many others really thought it 
was something to do with infrastructure, signals, and so on. 
Nevertheless, we live with that, and that's what this hearing 
about. Obviously, we've traced many of the causes of the 
accidents to fatigue and human factors.
    You have pointed out Positive Train Control. That's 
something that you all have been advocating for some time. In 
your opinion, based on what you know, and the recommendations 
that you had made in the past to the Federal Railroad 
Administration, have your recommendations been adopted?
    Mr. Chipkevich. With regard to Positive Train Control, 
that's been on the NTSB's Most Wanted list of safety 
improvements for 17 years, and so it has been many years before 
there was any significant progress in this area. We're finally 
seeing progress in this area, but not by all the railroads.
    Second, with regard to the acceptance of safety 
recommendations; overall, the acceptance rate across the 
nation, across all modes, is about 82 percent for the modal 
administrations. The FRA, overall, has been about 76 percent in 
the past, but in the recent last 10 years, is also at about 82 
percent acceptance rate, so it is comparable in the last 10-
year period to the other modal administrations.
    Mr. Gonzalez. We're talking about technology that will 
assist us addressing the problems with human error. It will 
override human error. And a lot of the technology that is 
utilized today in the cars that we all drive home today, is 
something that is not in the railroad industry.
    Mr. Chipkevich. Correct. We believe--we've got many 
accidents, as I noted today, 29 accidents that we looked at 
just since 2001, where we investigated collisions and over-
speed accidents, where we believe that Positive Train Control 
would have done just what you said. It would have been a safety 
redundant system to stop the train prior to the accident.
    Mr. Gonzalez. I think both of the witnesses--one point of 
clarification, because my staff wanted to make sure. And I 
fully understand the cell phone use is essential for 
communication relating to work conditions, and instructions, 
and such. We're talking about cell phone use that's entirely 
different, that you alluded to by an engineer or conductor. 
That was personal use, and it's obvious, again, how that plays 
into the accidents.
    But with that, Madam Chair, thank you very much. I yield 
back.
    Ms. Brown. Thank you. Would you explain for all of us what 
do you mean by ``Positive Train Control?'' Because I have this 
car, and we jokingly say that I got my driver's license from 
Sears a long time ago. But if I back up into a wall, or into 
another car, it starts making a noise, and so that's, I guess, 
Positive Control. Is this--can you kind of explain to us, as 
far as the industry, what does that mean?
    Mr. Chipkevich. Yes, ma'am.
    Ms. Brown. Because you mentioned that this has been on your 
top list for the past 17 years.
    Mr. Chipkevich. That's correct. Positive Train Control 
System is a system that, basically, a computer-integrated 
system with the train. As the train is proceeding down the 
track, there are signals which the engineer needs to comply 
with. And there'll be an advance signal, or a stop signal, 
which will tell him how to operate the train. If the engineer 
fails to comply with the signal, for example, to slow a train 
from 50 miles an hour, to 30 miles an hour, be prepared to 
stop.
    The computer system will identify the failure to act and 
slow the train to the appropriate speed; and, therefore, 
automatically apply the brakes. And it will also sense ahead 
for a red or a stop signal, how far the distance is, compute 
the stopping distance, and then actually apply the brakes, if 
the crew has not slowed the train to a specific speed.
    Additionally, just for operating, if a crew member is 
operating above a specific speed, and exceeds a certain 
threshold, then the train will apply the brakes, and bring that 
train back down to the appropriate speed.
    Finally, I've been on a train being tested with a switch 
being left in the open position in dark territory, where that's 
incorporated into the system. And if a train approaches that, 
the brakes will automatically apply again and stop the train.
    Ms. Brown. I guess my question, or follow-up to that is 
that you indicated that some trains was adhering to this, and 
some was not. Can we get a list of the trains that are using 
this technology, and those that need to be dragged into the 
21st century? Yes, sir? We can get that. Yes.
    Mr. Cothen, why hasn't the FRA adopted federal regulations 
that prohibit a local engineer--well, we just talked about the 
cell phones. Okay. I think we've answered that one. What was 
his other question?
    You mentioned drugs and alcohol regulations. Are all 
railroad workers subject to drug and alcohol regulations? If 
not, why, and why are they not covered?
    Mr. Cothen. Madam Chairwoman, we focused our attention on 
safety critical employees, pretty much as defined by statute 
under the Hours of Service Act, so these are folks who are 
operating trains, issuing authorities from a dispatching 
center, working on signal systems. And we found, over time, 
that that seems to be a good area of emphasis. However, we have 
also collected specimens from deceased employees who were 
involved in other events, and we have seen prevalence of drug 
use and other crafts.
    Ms. Brown. Did you want to answer that question I asked 
about the tracks in more extensive, the Positive Train? You 
said you're going to get us a list.
    Mr. Cothen. Madam Chairwoman, we can certainly do that. And 
I think Mr. Chipkevich did a very good job of explaining. The 
railroads generally describe it as being an electronic system 
that consists of a locomotive segment, a wayside segment, and 
an office segment. And they're all linked together, and when it 
works right, and it takes a good deal of effort to make it work 
right, the trains run on time, and they run safely. And a 
mistake that the engineer makes, or that the conductor makes, 
does not result in an unfortunate mishap. So it's a very 
powerful technology. It can protect roadway workers within 
their authorities. It can keep trains from going over speed, 
and the Burlington Northern Santa Fe has got a production 
version of it for their Configuration One territories, which 
are territories that are dark single track, or dark traffic 
control. And I just got another email this week on 
Configuration Two, so I think we're seeing very substantial 
movement.
    Ms. Brown. In reviewing the material for this hearing, I 
guess I was a little distressed about the number of accidents 
that was caused by defective tracks. What are we doing as an 
industry to correct that, because many of the accidents, many 
of the loss of life, seem like could have been prevented if we 
had put in the technology that we're talking about, or if the 
tracks was inspected, or just minor things that could be very 
disruptive to a community, or to the safety of the engineers, 
or the people that's working for us.
    Mr. Cothen. Madam Chairwoman, a great deal is being done. 
Frequent inspections are required, visual inspections, by the 
Federal Railroad Administration twice a week on most tonnage 
territories. We also require use of internal rail flaw 
detection technology, and railroads actually exceed our 
requirements on a regular basis in terms of checking the inside 
of the rail, using inductive or ultrasonic techniques. This is 
not destructive testing. And their car or rolling equipment 
mounted devices that check as they go along the track.
    We come back around with our automated track inspection 
vehicles, and we check for property track geometry. Our 
inspectors go out on the ground with railroad personnel, and we 
check. And I would say that, in general, we've got a big 
challenge here.
    The challenge is very heavy tonnage. And once you get 
something right, here comes another train, and it's pounding, 
and there are issues. And the next thing you know, you've got a 
problem, so it's a constant challenge. The railroads are trying 
to manage it, and we're trying to watch them as closely as we 
can.
    One thing I think you know we need to get to an extent that 
we haven't over the past few years, again, is rail integrity, 
and that's our next area of focus at FRA.
    Ms. Brown. Cars lining up, there is some discussion about 
hazardous material. Do you want to respond to that?
    Mr. Cothen. The status of hazardous materials tank car 
work, Madam Chairwoman?
    Ms. Brown. Yes.
    Mr. Cothen. We have a very active team at the Volpe 
National Transportation System Center that is evaluating 
derailment forces, under what conditions will a car breach? 
They're developing a model for a new approach to tank car 
safety. We have a cooperative relationship with Union Tank Car 
Dow Chemical, and Union Pacific Railroad to put together a 
package of proposals, engineering work and proposals, and our 
objective is to get that out this year.
    Technically speaking, and I've worked on tank car issues 
now since the 1970s, it is a very challenging area, because the 
potential forces in these accidents are very high, but we're 
aggressively looking at it. We have also put out for comment a 
suggestion which plays off of some of the suggestions that the 
National Transportation Safety Board has made in its 
recommendations out of Graniteville, that maybe for a while for 
these most hazardous chemicals, and that would be chlorine and 
hydrous ammonia, and other toxic inhalation hazard materials, 
in dark territory maybe we need to train staff. And we have 
that proposal out in December for comment in the informal 
public comment process that we're doing. Our third meeting will 
be coming up here in the next couple of weeks.
    Ms. Brown. Okay. Mr. Chipkevich, would you answer those 
same questions, please? Particularly, about the defection, as 
far as the tracks is concerned.
    Mr. Chipkevich. We found in accidents that it's important 
for the FRA inspectors to, when they're doing track 
inspections, to really compare the deficiencies that are found 
to the railroad's own track maintenance program. Under 
continuous loaded rail, they have a means of both installing 
the track, and how they're supposed to maintain it.
    We made recommendations in the past, and FRA has been 
responsive on requirements that they are going to have on their 
track inspectors to have copies of the programs with them while 
they're doing the inspections. And then we found that a 
Mississippi accident where there was a major Amtrak derailment, 
to make sure that there's follow-up after the inspections to 
make sure that the repairs are made to tracks.
    We've also seen the need for improved ultrasound inspection 
of rail, looking at the interior of the rail following an 
accident. At Nodaway, Iowa, where there was an Amtrak train 
that had derailed, we found that the railroad had done 
ultrasound inspections, found a defect in the rail, cut out 
that piece of rail, put in a replaced piece of rail, and that 
replaced piece of rail had a defect in it, and failed under the 
load of the train. And so we've made recommendations that the 
replacement rail be ultrasound inspected before installed into 
the track, so there is some area that needs to be improved.
    Ms. Brown. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Madam Chair. Just real 
quick question, because I know you've been up here a long time.
    In reviewing your summary of your accident report and 
investigation of the June 28th, 2004 Macdona accident, in which 
we had fatalities. We had at least 50 people hospitalized, some 
very seriously. Conclusion 13 reads: ``The Macdona, Texas 
accident is another in a long series of railroad accidents that 
could have been prevented had there been a Positive Train 
Control System in place at the accident location.'' And you've 
touched on that. As a matter of fact, you described how it 
would have slowed the train down, and so on, and then maybe it 
wouldn't have clipped that other train that led to that 
horrible accident.
    You may these findings and conclusions, but you also make 
recommendations, do you not?
    Mr. Chipkevich. Yes, sir.
    Mr. Gonzalez. And you make recommendations to all parties. 
That's going to be FRA, the Railroad Administration, as well as 
to the railroads, and so on. You made recommendations in this 
particular accident, did you not?
    Mr. Chipkevich. Yes, sir.
    Mr. Gonzalez. And of those, have they been complied or 
adopted? Is there anything you can--whether they're adopted or 
not--first of all, have they been adopted, and if not, to what 
extent can you do anything about that?
    Mr. Chipkevich. Yes, sir. The NTSB cannot require that its 
recommendations be adopted. And when they are not, and there's 
not appropriate action, our means is to be able to report to 
the Congress on the progress of those recommendations, in 
particular, when they're made to modal administrations.
    With regard to the Macdona accident, that is correct. When 
the engineer missed the signal and did not slow the train, a 
Positive Train Control would have slowed the train, and would 
have stopped the train before it reached its stop signal.
    Mr. Gonzalez. Have your recommendations been adopted?
    Mr. Chipkevich. Those have not been adopted, as of yet.
    Mr. Gonzalez. Thank you very much. I yield back, Madam 
Chair.
    Ms. Brown. Yes. I have a question. How many recommendations 
did you come up with?
    Mr. Chipkevich. We can provide you a list, for the record, 
of all the rail recommendations that have been made. There are 
currently about 45 recommendations open to the Federal Railroad 
Administration.
    Ms. Brown. And as of the time of this hearing, none has 
been adopted?
    Mr. Chipkevich. No, ma'am. Over a period of time, many have 
been adopted. And the acceptance rate, over the last 10 years 
where they have been completed and adopted, has been about 82 
percent.
    Ms. Brown. Okay. Well, thank you very much for your 
testimony, both of you. And we will get you the additional 
questions in writing.
    Mr. Chipkevich. Thank you.
    Ms. Brown. We're going to break up the panel into Panel Two 
and Panel Three. And Judge Wolf and Mayor Hardberger will be on 
the second panel.
    Mr. Mayor, I want to tell you, I like your digs here. So 
you could come up. I know this is an unusual position for you 
to--
    Mr. Hardberger. Well, I'm very happy to have you in that 
spot, and we're very glad to have you here.
    Ms. Brown. Thank you.
    Mr. Hardberger. Would you like me to go ahead and give a 
few remarks here?
    Ms. Brown. Yes, sir. I'm looking for the Judge.
    Mr. Hardberger. The Judge is right here, Judge Nelson 
Wolff.
    Ms. Brown. Yes, Judge. Would you mind coming up?

TESTIMONY OF PHIL HARDBERGER, MAYOR OF THE CITY OF SAN ANTONIO, 
            TEXAS; NELSON WOLFF, BEXAR COUNTY JUDGE



    Mr. Hardberger. I'll take the lead, but I will tell you 
that Judge Wolff and myself have been working on this together. 
We've authored several letters, and made some recommendations 
together, so in many ways on this issue, we speak with one 
voice.
    First, let me thank you, though, for being here. And, 
Congressman Gonzalez, thank you so much. It's an appropriate 
place for you to have these hearings, because we've had some 
bad experiences, and we could have had a lot worse experiences. 
And it doesn't take a whole of imagination to get from what 
might have happened, to many hundreds of deaths. So it's a very 
timely subject.
    San Antonio's history is actually linked with our 
railroads. They helped make San Antonio what it was, and the 
reason that we grew as a city in the 17th, 18th century, early 
19th century. Railroads were rivers of commerce that allowed 
San Antonio to flourish.
    Our city grew along these tracks, naturally attracted the 
house and the industry along the tracks. The irony, though, is 
today, those houses and those businesses are very much 
threatened and present a problem for our society, as well as 
the railroads.
    I would say that railroads today represent our greatest 
threat in terms of a catastrophic event. We have an emergency 
responder team, and, of course, we are ready and trained for 
things like hurricanes, or a terrorist attack. We plan for 
those, but the more likely thing that will happen is a major 
derailment of a train going through the middle of our city 
carrying hazardous material. In my own opinion, that is several 
times more likely to happen than a terrorist attack in San 
Antonio.
    Depending on what the train that's derailed is carrying, 
chlorine, natural gas, or other chemicals, you really would not 
have--it's not an exaggeration to say hundreds of people might 
die, and thousands might be injured. You actually have a person 
here in the audience, Ralph Velasquez, whose health is 
permanently injured because of the lasting damage done to his 
lungs, which has just about stopped his quality of life, and 
certainly will shorten his life. So these are very real things.
    October of last year, I got a call around 11 a.m. in a very 
populated part of our area, it's called Five Points, houses all 
up and down those tracks. And just a few feet away, not much 
further than I am from you, Madam Chairwoman, 17 cars had 
derailed. Some of them had gone right straight through the 
houses. I'd never seen a derailment up close. It's rather 
horrific. I mean, the utility poles are snapped off like 
matches. The pavement itself nearby is ripped up like you'd had 
a bulldozer got all of these twisted tracks, and the tie 
sticking straight up in the air, instead of being horizontal. I 
mean, you really can see the power that is there. The house is 
no protection whatsoever for a box car. I mean, it'll go right 
straight through it, and never even slow down.
    Actually, nobody got hurt. They weren't carrying any 
hazardous materials. It was actual paper products, and just so 
happened, the people weren't in the houses at 11 a.m. They were 
out and about. But boy, that is a close one, really close, 
especially when you put that with our past experience with 
Macdona, where four people died, and many others were injured. 
That's the one Mr. Velasquez was involved in. And then, of 
course, we've had another one where it went through a warehouse 
and killed somebody else. These are all fairly recent 
happenings. We're not having to reach real far back in our 
memory for this.
    Judge Wolff and I went immediately to the scene of the one 
that happened in October. In fact, I think we were there within 
about 30 minutes. It was still truly dust, and smoke, and 
everything else was still in the air.
    The cause of the derailment, Union Pacific later told us, 
was excessive braking force. And I guess in common language, 
they put the brakes on too hard. It ma have been the trains 
weren't strung together as they should have. Certainly, though, 
it was human error, and that's why you're here. But I will tell 
you, what if they had been carrying bad chemicals, and somebody 
had hit the brakes too hard?
    I don't think it's enough that we can hope our luck holds 
out. The odds would be against it, for one thing. And the 
safety of our city and the seriousness of this issue require a 
lot of attention from our national leaders, Union Pacific, 
itself, National Transportation Safety Board, and certainly, 
the local leaders here.
    The truth is, most accidents, whether you're talking about 
airplanes, cars, or trains, are probably, strictly speaking, a 
proximate cause, if not the proximate cause, is to do with 
human factors. It's a condition of life, and we have to keep 
working on those. But the truth is, you will continue to have 
accidents caused by humans, for one reason or another. You just 
try to, as you were talking about, keep them off the phone and 
other things, go slow, keep the tracks in good condition.
    A derailment itself may be, of course, caused by the 
condition of the roadbed, and that, too, is a human factor, 
too. Deals with something hard, but somebody made a decision 
not to fix the roadbed. Trains traveling too fast, same thing, 
are human factors. And, actually, even allowing trains to carry 
highly hazardous material through crowded areas, I submit, is a 
human error. That's an error in judgment.
    We, of course, as official policymakers and officials, we 
can, ourselves, be guilty of a human factor and human error, if 
we don't regulate the trains and the cargo properly. And we 
don't take heed of the now, at least three strong warnings 
we've had in a fairly short period of time. So I'm really glad 
you're here, because it gives us a chance to be able to talk to 
somebody that's important.
    And I will say, when we call Union Pacific, they have been 
absolutely courteous. They're very quick to get back to you. 
They apologize sincerely, but that's really not enough. That 
won't quite get it, although, I appreciate the courtesy and the 
quick phone calls.
    I have a few recommendations, for what they are worth. We 
set some of these out, Judge Wolff and myself, in a joint 
letter that we sent the National Transportation Safety Board. 
We are seeking support from our current Texas legislature at 
this time, and at least one of our representatives, Mike 
Villarreal, is in the audience, to relocate the rail traffic 
out of highly populated areas. We're asking the State of Texas 
to help us on that.
    We would also ask some federal help on that, as well. It's 
expensive. It's going to cost about $2 billion, and it will 
probably take about 10 years. Those are obstacles, big 
obstacles, but the quicker we work on the big obstacles, the 
more they become medium-size obstacles, and then small 
obstacles. And the size of this problem must not deter us from 
taking the necessary action. And it is necessary. This is not 
you could do it, it's we must do it.
    We would also like the City of San Antonio to ask this 
committee to consider granting the local government 
authorities, the city and the county, a multi-jurisdictional 
rail district that would allow us to know and share manifests, 
to identify hazardous cargo, and do what we can to seek 
alternative routes from hazardous cargo going through heavily 
populated area until we get the tracks moved.
    Of course, that is the long-term goal, but the short-term 
goal is we'd like to know what's coming through here, and when 
it's coming through. And we don't know that. I couldn't tell 
you whether hazardous material came through here last night, or 
this is just about the time that the last accident happened 
three months ago. For all I know, there's more coming through 
right now as we're talking. And we would like to know about 
that.
    So we ask for your support in these requests, Chairwoman 
and Congressman Gonzalez, to do so and help us with this. I'm 
afraid it always does get down somewhat to money, as well as 
rule making. You will make our city a safer place, and I know 
that we all want to do that. I know that's why Congressman 
Gonazalez was especially anxious to bring it here, which I 
appreciate.
    I know that you all are committed to this task, and I 
appreciate your commitment, and I ask you to do your best to 
translate some of that commitment in money. Thank you.
    Ms. Brown. Thank you. Are you going to be with us for a 
minute?
    Mr. Hardberger. Yes, I will. And we'll hear what County 
Judge Wolff has to say.
    Mr. Wolff. Well, thank you, Chairwoman Brown, for coming 
here to San Antonio today, and the great support that 
Congressman Gonzalez has given to this tremendous effort.
    On that June 28th, 2004 accident that happened in Macdona 
where people were killed, and some 50 people were injured from 
60 tons of chlorine gas that escaped, I went to that accident 
site. And I don't think you could see a more horrifying 
element, when you see the fumes still coming out. The bulldozer 
people had to stop operations because it was such a dangerous 
situation. But they did react, and they did clean up.
    Very shortly after that, on November the 10th, 2004, the 
Crystal Cold Storage was crushed. An employee of a rental 
company was inside doing business and was killed. I went to 
that site, also.
    The National Transportation Board did investigate these and 
found human failures with that. During that period of time, I 
learned that freight trains were being parked in sidings with 
locomotives left running and unsecured, leaving them ready to 
accessibility, anybody who wanted to board and set the train in 
motion. I heard from employees who were left waiting hours for 
transportation back to their terminals following expiration of 
available hours of service. And employees also reported they 
were being called back to work on such a frequent basis, they 
could not get the proper rest.
    We went to Washington. We met with the Federal Rail 
Administration, we met with the National Transportation Board, 
we met with Congressmen, and we talked about exactly what 
they're talking about with you today, some three years later.
    We talked about the need, and has been recommended for some 
17 years, of Positive Train Control. Nothing has been done in 
the last three years. We talked about hours of service, where 
an employee can work up to 432 hours a month, four times more 
than an airline pilot, twice as much as a person working in the 
shipping industry, and twice as much as a truck driver. Again, 
nothing has been done.
    We felt, after that trip, there was too cozy a relationship 
between the Federal Rail Administration and the railroad 
companies. I must say, since then I think that they have 
improved greatly on both sides.
    After the accidents, Union Pacific changed their local 
management people here. They hired more employees. They beefed 
up their training and safety operations, and the Federal Rail 
Administration assisted by sending more teams of inspectors to 
San Antonio. But on two of the biggest issues, they continue to 
talk, and they continue to do nothing, and we hope that this 
hearing will give the emphasis for them to move forward on the 
Positive Control, and limit the number of hours that a person 
can work. And, also, handle this limbo time when crews are 
waiting for transportation to their final release point, with 
neither time, nor duty for time off during that period of time.
    As Mayor Hardberger stated, a real major issue facing the 
state, the federal government, and local entities is to get the 
freight out of the major urban areas of San Antonio. Seventy 
percent of the freight that comes in San Antonio is pass-
through freight, not destination. Freight is expected to double 
in the next 20 years, with twice as many trains on the existing 
tracks that we have today. It doesn't take much to imagine the 
much greater hazard that we're going to face in the future, so 
we hope you will be a partner, along with the state. They have 
a fund that they're beginning to put in place, and hopefully 
will pass this session, some $200 million to begin a fund to 
relocate rail, but we will need federal funds in that, also.
    Locally, we're getting close to finishing a rerouting 
program that would pull some of the traffic around the 
southeastern part of San Antonio, rather than going through. 
Union Pacific has done another good. They have created a multi-
modal yard with a building outside of the urban area, which 
will reduce the number of trucks and trains coming into the 
inner city on the west side, so we have made headway. We think 
there's a heck of a lot more to do, and we ask your assistance 
in helping us make that come about.
    Ms. Brown. Thank you so much, both of you. Your testimony 
is very targeted, and just very crucial. And I want to thank 
you.
    First of all, let me just ask for copies of the letters 
that you sent to Washington, and to NTSB, so we can make it an 
official part of the record. And second, the subcommittee have 
had several hearings on fatigue. And as we look toward re-
authorization of the Federal Rail Safety Program, Judge, what 
do you think we should do to prevent fatigue, and what 
specifically should we be doing to address limbo time?
    Mr. Wolff. Well, first of all, on the fatigue issue, I 
think a rule very much at least in line with the number of 
hours per month that someone can work. Perhaps the number 
dealing with shipboard personnel, and truck drivers, might be 
the proper way to look at it. That would be half of what 
they're allowed to work today.
    And I know, I just heard the steps taken forward on 
Positive Train Control. I think the faster that you can 
implement that, and move that forward, would be a tremendous 
help. After all, it's only been recommended for 17 years. 
Hopefully, this Congress with the change that's come about, 
which I might add I'm delighted about that change, and I hope 
that he will be aggressive in pushing forward on this issue.
    With respect to the limbo time, while they're waiting for 
transportation from their release points, somehow there has to 
be a better method, some planning of where they're released 
from, to begin with. And if they're going to have to be 
released in the middle of the countryside somewhere, then they 
ought, at least, be able to get credit for time still on duty. 
They ought not to be released there, to begin with. There needs 
to be some flexibility to get them in closer to the 
metropolitan area, and closer to where they're going to be. But 
I don't know that a rule can be promulgated in that limbo time, 
other than compensation. Ithink that the railroads have to work 
a little better in terms of planning of where this crew will be 
released.
    Ms. Brown. I have a real follow-up question for you. The 
railroad, including Union Pacific, have proposed limiting their 
liability in train accidents involving hazardous material. They 
have proposed a cap in damages at $200 million. What do you 
think of this proposal?
    Mr. Wolff. I hadn't heard of that one. Doesn't sound good. 
If it's their fault, they ought to pay for it.
    Ms. Brown. All right. All right.
    Mr. Hardberger. You know, you pay for the damage that you 
do. Maybe $200 million is enough, maybe it isn't. Depends on 
how many people are injured and killed, and how much property 
is destroyed. I don't think there should be any caps. The caps 
are what the damage is, and needs to be--you need to cut the 
cloth to fit the damages, not some arbitrary figure.
    Ms. Brown. In the areas that occur in this area, do you 
know whether or not the people that was involved, have they 
been compensated for what happened to them, or is it still in 
litigation?
    Mr. Hardberger. I know that at least some of them have been 
compensated and the suits have been settled. I don't know if 
it's 100 percent, but I believe most of them have, and that the 
litigation is at an end.
    Ms. Brown. Let me just say one other thing, before I turn 
it over to my colleague for his questions or comments. In 
TEALU, we appropriated, authorized $350 million for just what 
you requested, partnership, relocation of tracks, and the 
President zeroed that out, or put no funding, or no 
recommendations in the budget for that kind of partnership. You 
may have a little bit more influence with him, since he's from 
this area, and he's going to be coming back here soon.
    Mr. Wolff. Well, we will encourage him. Quite frankly, I 
don't think that's enough money, because we're looking to the 
state for 150-200 million dollar fund.
    The State of Texas, by the way, passed that. Again, another 
positive sign that Union Pacific is doing the right things, is 
that they have stepped up and said that they have signed an 
agreement with the governor to do a joint proposal to move 
these lines out of part of San Antonio, out of the Austin-San 
Antonio corridor.
    Ms. Brown. How much is that going to cost, total?
    Mr. Wolff. That's probably going to be a billion dollars or 
more, just for this. But the $200 million, maybe closer to two 
billion, the $200 million leverages up to two billion in the 
ability to provide for relocated lines, so I would think that 
the--this is going to be a huge problem for you.
    I've got to know Matt Rhodes well, who is the Chairman and 
CEO of Burlington Northern, and I've got to know Jim Young very 
well. And I must say, Jim Young, President of Union Pacific, 
was right here on the ground, went to visit the people that 
were injured, and really stepped up and did the right thing.
    But bottom line is, this country is facing, somewhat, what 
President Eisenhower faced with respect to highways in the 
1950s. Rail is growing at about 5 percent a year. As I say, it 
will double, and the rail infrastructure is not there to handle 
it. The rail infrastructure is in the wrong place. And if 
Congress would take a look at this, as they did at highways 
some 50, 60 years ago, I guess, now, I think it's a major issue 
facing all of us. And as Mayor Hardberger said, if you are 
worried about a terrorist attack or something going wrong, a 
train moving through the heart of a city is the most dangerous 
threat that we could face, as Mayor Hardberger said, so we need 
to get them out of the urban areas. And we will significantly 
need your help to address this for every train that we can 
reroute out, and not have them on the highways, dangers on the 
highways. I think one train, 200 trucks or something like that, 
so it makes sense. It's a good investment for safety, both on 
the highways and on the railways.
    Ms. Brown. I agree with you 100 percent. I'm excited about 
the challenges that the railroad face, but before the 1950s, we 
were number one in the world, and now everybody is ahead of us, 
if you look at China, or you look at all these other countries. 
And, basically, the communities or the country that the 
infrastructure is not in place, then we're going to be left 
behind, because we want to be able to move these goods and 
services throughout our country. And even though $1 billion 
sounds like a lot of money, we're spending, I want to say, $15 
billion every, what, five weeks in Iraq?
    Mr. Wolff. Yes.
    Ms. Brown. Yes, so the taxpayers--
    Mr. Wolff. I hope that you all will move aggressively on 
this. For transportation, also economic development, as the 
Chairwoman pointed out, it's economic development, as well as 
safety. And it just has to be done, I think, and this Congress 
hopefully will be the one to step up and allocate the resources 
where they belong, and away from where they don't belong.
    Ms. Brown. Thank you so much. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much. Now you know why I enjoy 
serving with Chairwoman Brown. We're getting a little taste of 
her personality, and very strong-held convictions, which are 
quite admirable.
    I guess a couple of observations. You know, we have worked 
really close, and I've known the Mayor and the Judge for so 
many years. And it's been frustrating on the federal level not 
being able to really provide you adequate answers or the 
funding.
    A couple of things that could easily be addressed, though, 
and I still don't understand why they're not. And, Mayor, you 
had indicated, you would really like to know what hazardous 
materials are coming through the city, and when. That 
information is not available, and I'm thinking of first 
responders. And I know that Nim Kidd is not going to be here 
today, and he probably could have shed some light on this. But 
even outside would be the normal course of business for the 
city, in the first responder mode, and, of course, with the 
threat of terrorism and such, they could take advantage of 
hazardous materials coming through a highly populated area; do 
you have any authority, or manner, or means to obtain that 
information, so that it can be coordinated? Or you can, 
actually, maybe try to reach agreements to have the materials 
transported during those periods of time when there's less 
traffic, less population out there, and so on.
     Mr. Hardberger. We do not have the authority to make that 
happen. I think we would need some enabling legislation from 
the federal government that that material would be shared. 
Otherwise, we are merely asking the railroads to do that for 
us, and they have indicated that they want to do that. So I 
think we'll probably need some help from you to be able to get 
that done.
    Mr. Gonzalez. The issue of authority, of course, is a big 
one, and I guess I'll kind of play the devil's advocate on this 
thing. Not that we would--at the federal level, why not share 
some of the responsibility with the state and local 
authorities? I don't know if that's really going to happen.And 
let me just toss this out for consideration.
    Anticipating where I think the railroads would come on 
that, is that they really do like a federal scheme so that they 
wouldn't have, let's say, 50 different sets of regulations in 
50 different states that they would be operating out of. On top 
of that, given local authorities some jurisdiction over some of 
these matters, could also complicate things, because you always 
hear that, that the regulatory scheme out there, especially 
when it's distributed at the federal, and state, and local 
levels, really makes the cost of business - it drives it up, it 
makes it difficult and so on.
    How would you address that particular argument that might 
be advanced by the railroad industry? And that's a question for 
both of you.
    Mr. Wolff. Well, I think you guys are the guys that need to 
do this. The problem is they haven't really stepped up and did 
it. And it needs to be uniform throughout the country. But I 
think what Mayor Hardberger was referring to was just 
information, so that if we knew something was coming through, 
when it was coming through, that we could respond, and be ready 
to respond to that.
    And as you so aptly stated, there may be a way to have that 
kind of freight coming through when there's less congestion on 
the highways that may cause an accident. I know what you're 
going to run into, I've already heard it. You're going to run 
into National Security, about if they knew a train was coming, 
and they got that information, maybe they would do something to 
it, so I know you're going to bump up against that, because 
that was one of the issues we raised, and that was one of the 
push-backs on it, regarding National Security. I don't know, 
still might be.
    Ms. Brown. Let me just say that this committee is working 
with Homeland Security in coming up with a safety bill that 
would include how we could work together to--because the first 
responders have a need to know, and so we're working through 
these issues. And you can rest assured that we're talking, and 
we're going to come up with some recommendations, and some 
bill. Keeping in mind, we've only been in charge since January. 
And we've had 91 Oversight Hearings since that time, so we're 
going to do our part to not just talk about security, but walk 
that walk.
    And I want to thank both of you for your leadership, and 
for you comments. And we are looking forward to your statements 
and letters that you sent to the committee for the record. And 
we may have additional questions that we will forward to you.
    Any closing remarks, Mr. Mayor?
    Mr. Hardberger. No, but I want you to know that I do have 
the letters right now. And I also have my remarks, that I gave 
this morning reduced to writing.
    Ms. Brown. Thank you. And thank you, Judge.
    Mr. Wolff. Thank you very much.
    Ms. Brown. I'm going to let Mr. Gonzalez introduce the next 
panel.
    Mr. Gonzalez. I appreciate it, Madam Chair. It is a 
privilege to.
    Ms. Brown. I think you have it.
    Mr. Gonzalez. Oh, absolutely. And I'm going to start off--
and he is on this particular panel. Is that correct? Okay.
    She may not be here as a witness, presently, and I think I 
may have seen another council member, but we have Sheila 
McNeil, who's here, someone that we're all very proud of in the 
capacity as City Council Member. I know Councilman Roland 
Gutierrez was here earlier, and I don't know if he's still 
here. And we have any other member of the City Council or 
Commissioner's court that I--oh, Councilwoman Herrera, good to 
see you. So we have two members that are here.
    Testifying today in the next panel, a good friend and one 
of the most--what I always consider one of the more 
imaginative, creative state legislators, and hardworking state 
legislators, State Representative Michael Villarreal. Mike, if 
you'll come up and be positioned wherever staff finds you a 
place.
    Another good friend, community leader, former council 
member is Maria Berriozabal. And, Maria, if you would please 
come up. An acquaintance of many years, very prominent family 
who, unfortunately, had a very terrible experience, because he 
was one of the individuals out at Macdona who resided near the 
accident site, Mr. Ralph Velasquez.
    We also have, of course, representing the southern region 
for Union Pacific Railroad, Mr. Larry Fritz. And we appreciate 
Mr. Fritz being here today.
    Thank you, one and all. And I yield back to the Chairwoman.
    Ms. Brown. We're going to be opening with the State 
Representative, with his remarks. Yes, sir.

 TESTIMONY OF MICHAEL VILLARREAL, STATE REPRESENTATIVE; MARIA 
  BERRIOZABAL, FORMER SAN ANTONIO CITY COUNCIL MEMBER; RALPH 
VELASQUEZ, COMMUNITY ADVOCATE INJURED AT THE MACDONA ACCIDENT; 
  LANCE FRITZ, VICE PRESIDENT-SOUTHERN REGION, UNION PACIFIC 
                            RAILROAD



    Mr. Villarreal. Madam Chair Brown, thank you for giving me 
this opportunity. Congressman Gonzalez, thank you for bringing 
the subcommittee to our community.
    Though we've heard earlier that the number of accidents and 
incidents in the nation in regards to rail accidents have 
declined, that has not been our experience. That's not what we 
are feeling here in the San Antonio community.
    I believe government's first priority is to protect us. I 
fight to make sure, on the state level, I can do everything I 
can to make that happen. My constituents have asked that I take 
action. In doing so, I have discovered that I have very limited 
number of options.
    This problem, the nature of the problem, is a federal 
nature. However, I filed House Bill 1345.
    Which would require that the 87 schools in Bexar County 
that are located within 1,000 yards of a railroad track develop 
emergency response plans. This is not only for the 60,000 
students that occupy these school buildings along the railroad 
tracks, and I brought a diagram to just show you. I'm happy to 
give you a smaller copy of this map.
    The red lines represent the railroad lines. The orange 
figures represent the number of school houses along railroad 
lines within 1,000 yards. There are 87, totally 60,000 
students. That's larger than the San Antonio Independent School 
District. They're counting on us to protect them.House Bill 
1345 will require their schools to develop emergency response 
plans in case of train derailments.
    I've also authored House Current Resolution 91.
    Respectfully requesting that the federal government take 
appropriate steps to address our concerns with rail safety.
    The Mayor and the County Judge have done a good job in 
describing our recent history, accidents in `04 and `05, and 
most recently, in `06 with the 17-car derailment. I won't cover 
that. I want to jump straight to my recommendations.
    Number one, steps must be taken to improve the 
predictability and regularity of engineers and conductor's work 
schedules. Union Pacific, and most other railroads, use a work 
system in which an engineer or conductor have a set time for 
rest, but may be called in at any time during that period of 
rest. According to Union Pacific's Director of Fatigue 
Management, this is their own person, such a work schedule 
results in ``erratic, unpredictable shifts ''.
    I've spoken to engineers and conductors, and what they tell 
me is even though they are required to have an eight-hour rest 
period, they can receive a phone call in the middle of that 
eight-hour period calling them back to work. That's 
unacceptable. That's not rest.
    Recommendation Two, data. The fox is guarding the henhouse. 
Today, railroad companies control the fact-finding, Congressman 
Gonzalez, that you referred to earlier. They control the data 
collection process. They also control the ability to classify, 
to interpret the data before reporting it to the federal 
government. That's unacceptable. We need to change that. What-
if data collection and classification was conducted by the 
government, not Union Pacific, or other rail carriers.
    There should be full disclosure of data collected by defect 
detectors. Also, the reporting of excess hours of service, of 
rule violations, and of all incidents, not just reportable 
incidents. This would empower not just the federal government, 
but it would empower us, at the state level, to act 
appropriately when we observe trends that are climbing toward, 
building toward a potential accident.
    The FRA and the NTSB should improve information sharing. 
You heard that earlier from the Mayor and the County Judge. If 
the federal government were to take control of the fact-
finding, data collection process, I would ask that you empower 
us, at the state level, by sharing that information.
    Recommendation Three, the FRA must enforce current 
regulations more aggressively. You heard others talk about the 
Macdona incident in 2004 that claimed three lives, and injured 
up to 50 people. The National Transportation Safety Board 
report notes, and I'll quote: ``The Safety Board examined FRA 
inspection data for calendar years `03 and `04. No FRA 
violation reports were submitted during that period for non-
compliance.''
    What that tells me is there was an accident, people died; 
yet, there is no official blame placed on the engineer, the 
railroad company. We need to do better about aggressively 
enforcing our current rules.
    Finally, I want to offer just a suggestion; and that is, 
the policy focus should be less on finger-pointing that often 
occurs after an accident, putting it on the shoulders of a 
sleepy engineer, or human error of a conductor. That seems to 
always follow an accident. I think what we should do, as policy 
makers, is to step back and identify what the root causes of 
these accidents are.
    My own mind gravitates towards how hard the conductors are 
being worked, and how little rest time they're being given. 
That results, that systemic problem expresses itself in human 
error, and train derailment tragedies, as we have seen here in 
San Antonio.
    In conclusion, I thank you for refocusing attention on 
safety. I thank you for coming to our community, who have seen 
a rash of accidents. You have given the citizens of this town a 
feeling that our voice is being heard. I thank you for that.
    Mr. Gonzalez. The Chairwoman has given me the additional 
privilege of introducing my local witnesses here. I would call 
at this time as the next witness, Maria Berriozabal.
    Ms. Berriozabal. Good morning, Chairwoman Brown. We're so 
glad that you came to our city today, and responded to the 
invitation of our Congressman Gonzalez. We're very happy that 
you came, and thank you very much for inviting me to provide 
some comments.
    I am Maria Antonietta Berriozabal, and I come here as a 
resident of this city, trying to voice concerns of so many 
people who are very concerned about this issue in San Antonio.
    My particular neighborhood is sandwiched between two 
railroad lines. One of them is three blocks from my house, the 
other one is two blocks from my house. This neighborhood is 
about two miles and a half from City Hall, where we are here 
today.
    On the morning of October 17th, 2006, I got a call from my 
sister asking if I was being evacuated since there had been a 
train derailment near our house. I did not wait for much more 
information, and I ran out to see if I could see the wreckage 
from my porch. I could see nothing, but immediately thought of 
a friend who is 30 yards from the railroad tracks, Mrs. 
Torralva. So I started to go out and see how I could help her, 
and others. But then it struck me that I had my own human 
error, my human factor. What if there was toxic chemical in the 
train? So I went back into the house, turned the TV on, and 
learned that there were no hazardous materials; however, two 
houses had been struck by a train. Later, I learned that the 
house of the Alvarez family. Mr. Martin Alvarez, his wife, and 
his daughter, were left homeless.
    In this story, there are several obvious points that I have 
pondered, even more closely every time I hear the whistle of 
the train at night, or during the day. The Union Pacific 
Railroad Lines, as they cross our city, are lined with hundreds 
of homes, businesses, many belonging to working-class people 
and poor people. Within a block of the derailment were located 
two publicly subsidized apartment complexes for the elderly, 
and handicapped individuals. One of these is a high-rise 
apartment where mostly elderly people live. Within half a mile 
are three schools, one junior college, our San Antonio 
Community College.
    A major threat for all of us, whether we live yards from 
the railroad tracks, or miles away, is the danger of the 
derailment of a train carrying hazardous cargo. Whether we are 
rich or poor, we are seconds away from a major disaster during 
the day or at night, and we are not ready for such an accident. 
Our city and county are very limited in the kind of investment 
that needs to be made to prepare a city this large for this 
disaster.
    As a community, we grieve the loss of Gene Hale, Lois 
Koerber, Heath Pape, Rob Whitworth of Macdona, Texas. For them, 
all these discussions were too late to save their lives. What 
happened to the Ralph Velasquez family of Macdona, can happen 
to any of us. And we resonate with the pain of the Alvarez, who 
lost their home, a home their father had built with his own 
hands.
    One major concern we have is for chemicals that are being 
transported in these trains. It was chlorine that killed the 
four people in Macdona, and did irreparable damage to the 
health of the Velasquez. A huge problem is that we do not even 
know which chemicals are being carried, and when they are 
crossing our neighborhoods. Are they during the day when people 
are home? Are they at night?
    Both the train collision that injured the Velasquez, and 
the derailment that uprooted the Alvarez, were caused by human 
error. We know that both of these accidents were caused or 
aggravated by train crew fatigue. It is simply irresponsible 
for railroad companies to schedule train crews in the erratic 
and unpredictable shifts they now use.
    The railroad companies knowingly put their crew members 
into a state of perpetual exhaustion, and then allow them to 
drive dangerous trains through highly populated areas. My 
neighbors and I worry about the callous disregard for human 
life that is reflected in these practices. And we worry about 
the indifference of government agencies who are supposed to be 
protecting us.
    We need the help of the federal government in several 
areas. Some of them are, in cases like the Alvarez and others 
like them, they should be compensated for all their losses, 
including the serious emotional disruption, and multiple 
economic consequences of the tragedy. Cities and counties 
should be reimbursed for costs incurred for emergency response 
in cases of train derailments, which would include community 
education on how to respond to train derailments, especially 
when toxic chemicals are involved. People should not be put in 
the situation that I was put in, to run and help my neighbors, 
when I could have been hurt, also.
    Union Pacific must address the condition of all its rails, 
bridges, rail crossings, and their infrastructure, in general. 
We who live right close to the railroad tracks know that there 
has been much deterioration in recent years. These are old 
tracks. Trains carrying hazardous materials must be rerouted 
away from our highly dense populations. And finally, and most 
important, all of our rail lines must be relocated from the 
midst of our cities.
    Our local and state officials are doing the best they can 
with very limited resources. We are grateful to them. But we 
trust that under the new leadership of this committee, Chairman 
Oberstar, Chairwoman Brown, Congressman Gonzalez, yourself, and 
the other committee members, that our pleas of so many years 
are going to be heard. And we are trusting in you that you are 
going to take care of the lives of our people, particularly 
those who live very close to the railroad tracks. And when they 
lose a house, they lose everything.
    Thank you very much for having me here today.
    Mr. Gonzalez. Thank you very much for your testimony. And 
at this time we would call--the next witness would be Mr. Ralph 
Velasquez.
    Mr. Velasquez. This is--I prepared a statement, because I 
was asked to. And there's a lot that I said in here, and you 
all can read it. This is difficult.
    First, before we get into this, I want to thank you for 
coming to our city, and experiencing the caldo we call San 
Antonio. It's a diversity of culture, and great visionaries. 
And you've experienced how we love this city, because we love 
our representatives. Our representatives, thank you, Charlie, 
thank you, Mike, are visionaries, and they care. They were 
elected to represent, and they have excelled at every level. 
And you've experienced them, you've listened to them. They are 
passionate, but they are the best. And I think that from San 
Antonio, you will see solutions come out, because San Antonio 
has a brain-trust second to none in the city, and in the 
nation. We have experienced things that no other city should 
experience. We have got the best representatives, and for that 
I want to thank you.
    Charlie, I want to thank you for spearheading this 
investigation. You initiated the investigations at the highest 
levels. You brought this thing home, and for that, I thank you.
    For State Representative Mike Villarreal, I want to thank 
him very much from the bottom of my heart, for initiating the 
evacuation plans for schools. It was very visionary, very 
great, and very heart-felt. Thank you.
    Judge Nelson Wolff and the Mayor, I want to thank them for 
bringing all affiliated parties together, and finding the 
causes of this tragedy.
    City Councilwoman Delicia Herrera, she was there from the 
very beginning, and I want to thank her for having the vision 
to create a bridge between the railroads and the city to create 
the first regional training facility outside of Pueblo, 
Colorado, here in San Antonio. That way, the first responders 
and their families will have someone coming home after an 
accident. And for that, I want to thank you. We have great 
people here.
    But also, I'd like to thank many of the citizens of San 
Antonio, and those first responders. No one has thanked them 
today. These are young kids, a lot of them are young kids, and 
they were scared to death. I spoke to several of them, and 
thanked them personally. They had to be rescued from my front 
door. It was bad, and it was horrible. They're still having 
nightmares, so imagine the nightmares that my children still 
have.
    But the primary reason for my testimony is to present an 
opinion on rail safety, and to offer suggestions that might 
provide venues to increasing public safety. But to begin with, 
I think that you need to hear from a survivor. And this is very 
difficult for me to talk about, so please bear with me. I wrote 
these things from the heart, and sometimes the heart can't 
speak very well, so I might have to ad lib a little bit. Okay?
    Since there's nothing that can be done to undo the 
incredible pain and continued suffering of those who have had -
I thought I was kind of tough, you know.
    It was 4:48 in the morning, and I've skipped a lot. You all 
can read what I was going to say. It is 4:48 in the morning 
when my son, Ralph, woke me up and said, ``Dad, there's a 
strange noise outside.'' And I got up and went out, and when 
you live out in the country, you live with your windows wide 
open, your doors open, and your ceiling fans on, and you've got 
a bunch of dogs. We're no different. It's a very safe place. It 
was my Xanadu. It was a place where my kids would go fishing 
along the river right next to us, and they built tree-houses, 
and they were just a bunch of Tom Sawyers and Huck Finns. They 
were great kids. But when somebody wakes you up and says 
there's a strange noise, it's best to investigate it, so I went 
outside, and I didn't see nothing. I just heard the trains. And 
I came back inside, and my ex-wife, who came by to stay with my 
kids on the weekend, she came in a few minutes later, and she 
was making these gestures, going like this. And I asked her 
what's wrong, and she didn't say anything. And so I got up, and 
went to the kitchen, and I asked her if she had spilled some 
chlorine. And she said--I mean, she didn't say anything. She 
was just going no, like that. And then I thought somebody was 
up to something, you know.
    You got out there, that's not normal stuff, you know. So I 
went outside and the smell of chlorine was getting stronger, 
and stronger. It was dark outside, you know. And I went around 
the house, looked all around, didn't see anything. And then I 
went up to my front gate, and I looked towards the railroad 
tracks. And I thought I saw like a bunch of ghosts or 
something. And then all of a sudden my tree line kind of 
disappeared, and this huge cloud, about 60, 70 feet high, and 
like a donut, was real long, as far as I could see, came 
rolling pretty hard through the forest. And that's when I 
started--I ran back to my house, and I yelled to my kids to 
cover up and get out. And we were going to go into my car that 
was parked right next door.
    By the time I hit the house, got into my house, the cloud 
was already hitting--just a few seconds later hit the house 
pretty hard. It was like a thud. And right after, that you 
couldn't see a thing. The lights were on, and they became like 
a little red glow. You couldn't see anything. And we got out, 
and we found our car, bumped into the car. And my kids got into 
the car, and everybody was scared.
    And I went to get my dogs, because it was the dogs that 
saved us. My dogs were yelping, and making all kinds of noises. 
And we couldn't find them, because at that time, then it got 
pretty near zero where you couldn't see anything. And the pain 
wasn't immediate, it grew on you.
    After we started the car, I turned the lights on, you 
couldn't see anything, so I put it on parking lights and drove 
through the back gate by my barn. And, unfortunately, someone--
my neighbor had borrowed my barn, and he put bailing wire on 
the gate, and I couldn't get out. And we cut our hands and 
everything just trying to open it, and we couldn't do it. And 
at that time, it was already zero. We couldn't see anything, so 
I backed the car up and rammed right through the gate, busted 
our windshield and everything. And we went out. We were going 
to go to the back end to break through onto Lackland. I was 
going to break through their gate. That would have alarmed 
people, brought somebody to our neighborhood.
    We didn't make it that far. There was a divine intervention 
or something, something told me to stop, and I did. And I went 
outside, and ran in front of the car, and ended up in a sea of 
mud. If we had kept on going, we would have died right there. 
So I came back, and my kids helped guide me back, and we went 
across the cornfields and the sunflower fields, and everything. 
It was like seven foot tall. And that's what kept us from 
sinking into the mud.
    We eventually got out of there. My daughter, when I got out 
the first time, my daughter, Nicky, said, ``Daddy, don't leave 
us. Don't leave us.'' It was at that time they were already 
starting to bleed, and I came back in with all mud and stuff, 
and came back in, and we went across country, and they were 
bleeding pretty much, coughing up a lot of blood, and that's 
when Nicky said, ``Daddy, are we going to die?'' And like I've 
told folks, that's one of the hardest things any father can 
hear from their children. And I vowed that that wouldn't 
happen. And we made it, through the grace of God, and the 
Virgin Mary, we made it through.
    I'm not a very good Christian, but I'm a damned good 
Catholic, so we really got to get into--and I really believe in 
the Virgin Mary, because that was a woman's voice I heard. It 
was a woman's voice that told me to slow down, stop. It was 
woman's voice that told me go this way. And that's when I saw 
that, busted out, and we got out there.
    And when we crossed the last gully, the car was falling 
apart. It had gone through hell. And I saw this 18-wheeler 
coming up, and I knew where we were at, but we knew we had to 
go get our neighbors, so we went and got our neighbors, and got 
them out. But the things that we went through, it's just very 
hard.
    People say, ``Well, what did it feel like?'' Well, you can 
only imagine a man on death row getting that cyanide cloud 
coming up, and knowing that if he's going to breathe it, he's 
going to die. Well, that's the same thing we felt. Those 
chemicals burned us pretty much. It scarred us not only 
physically, but mentally, emotionally. It took its toll. It 
took it's toll. My kids don't sleep anymore, I don't sleep 
anymore, or sleep not very much. And these are things that 
we're going to have to live with the rest of our lives. And one 
of the reasons I'm here is how do we fix this? How do we just 
say no. I mean, we don't want this to happen again.
    Well, when I got out of the hospital, I found out that my 
neighbors died, the ones you had mentioned, wonderful ladies. 
We had been helping them. My daughter had bought a bonnet for 
Ms. Hale, and was going to give it to her that Monday because 
we were helping them in their garden. And she had just finished 
her garden, finished her fence and things. But what was very, 
very difficult was to know that a young man died in my 
driveway, young Mr. Pape, a very courageous conductor. A very 
young man, 23-years old.
    And it's taken me a long time as a father to accept that. 
As a father, all of us here who are fathers, would move any 
mountain to go save a child. And there's a young boy, he died 
on my driveway. That's been very, very difficult, and I could 
never forget that, because if had I known he was there, I would 
have moved everything in my power to get him, but I didn't.
    So what do we do to avoid such tragedies in the future? I'm 
an ex-union organizer, so I don't particularly like to blame 
Labor. I think it's a dual thing, maybe bad planning and stuff. 
People don't go on drugs just to go on drugs when they've got 
hard responsibilities. But they sometimes use those things just 
to keep their jobs; in other words, keep working.
    Maybe we should figure out ways of how to create a good, 
strong relationship between corporate and labor, because 
there's enough blame to go around. But blaming doesn't 
accomplish anything, it only alienates and stifles meaningful 
cooperation, and potential partnerships.
    There are some things that were said today that I disagree 
with, and I disagree with them very strongly, and said by my 
friends, who I respect and admire greatly, that we have that 
friendship because we can disagree. I disagree with the 
relocation of the tracks. I don't feel that we need to pit the 
culturally affluent southside against the economically affluent 
northside.
    We tend to see rail lines predominantly in people of color 
neighborhoods. We predominantly see that. We cannot continue 
that. If we move them out, then they're going to be moved out 
into rural, and you're going to have people who have less voice 
being affected by this. You're going to have people who rely on 
these spurs for the merchandise that are presently now small 
businesses. They're going to have to shut down, because they 
won't have to relocate. This relocation, in my opinion, only 
benefits speculators and developers, because that's prime 
property downtown. And if we're going to do that, if we're 
going to go that way, then make sure the developers and 
speculators have zero access to that prime property, and make 
it into linear parks, so that the entire community can enjoy 
it, not just the affluent.
    But I just think that we're brighter than that to move 
things. I think we can find solutions. One of them, I would 
think is, let's theoretically deconstruct the rail system. 
Let's partner with them. Let's bring them into the fold, 
because, after all, they are part of our community, as well.
    Now people say, Ralph, you should be angrier than heck with 
them. I am. You know, I'm very angry. I'm very angry for the 
damage that was done to my family, that was done to my 
community, and to the friendships I lost, and to that young man 
who lost his life. I'm very angry, and I will be angry for the 
rest of my life about that, but that accomplishes nothing. That 
anger would be misplaced if we don't look at it to find 
solutions.
    And so with that, I'm trying to bring some kind of 
suggestions that might be solutions. For example, concrete rail 
ties. I'm an ex-railroader. Okay? Concrete rail ties would go a 
long ways, because the nature of wood is that it expands and 
contracts with the weather. And when you put something metal 
into it, it doesn't naturally hold it. It'll expand because of 
the traffic of the thing. The weight of the thing. If you use 
concrete ties, one, you're going to benefit the environment 
because we stop cutting down trees. And two, we don't have to 
use cancer-causing carcinogens preservatives, that eventually 
leach into our water table.
    Let's think broader. Let's think, if you use the concrete 
like they do in Europe and other places, they don't have the 
derailments. They just have -- okay. If we can avoid 
derailments because of materials, well, then let's do that. If 
we're going to do that in the high traffic areas, let's put 
concrete ties in every metropolitan area. That way the chances 
of derailment are minimized. Plus, you're going to create a new 
industry. You will create a new industry with the partnerships 
of the affiliated parties. You'll create new economic 
development opportunities.
    Containers. Containers made before 1987, and that's you 
guys numbers, suffer from extreme metal fatigue. Just like 
airplanes after 9/11, they all got x-rayed, they all got--well, 
a lot of the rail cars did, too. And they had stress, metal 
stress, metal fatigue, simply because of all the different kind 
of chemicals being carried in these things. They said well, you 
know, if it's made before 1987, it should be taken out of 
service.
    Well, the one that derailed on our property was, I think, 
1973 or 1976, something like that. It's not saying that the new 
containers are going to withstand puncturing. That's not saying 
that, but it's the alternative that we'd have to look at.
    Ms. Brown. How much longer?
    Mr. Velasquez. One more minute, or two. One more minute.
    Let's go to the 911 upgrade. You heard the tapes. There was 
mask confusion. If we go with the 911 upgrade to include a 
border trace, a rail trace, that way the 911 operators will 
know exactly what is on that manifest, and they'll know exactly 
what evacuation routes to use. That's where we just wanted to--
I made sure you put that in.
    Manufacturers of hazardous materials should be required to 
transport their products only on approved containers that meet 
or exceed all federal guidelines.
    And in closing, I want to thank my Congressman and our 
great elected body here, and to all those brave first 
responders. You are, indeed, a credit to our community. But 
please remember that the other side of tranquility is hell. 
Thank you.
    Ms. Brown. Thank you very much for your testimony, all of 
you. I guess, I'm thinking that maybe, if it's possible, maybe 
we could take about a five minute water break, and then we'll 
come back to Mr. Fritz. You've got a lot to answer, and I want 
to give you a moment. Maybe we can get you some water.
    [Recess.]
    Ms. Brown. Let's get started because we have several people 
that need to testify and have to leave. Will you please take 
your seats. Once again, while they're taking their seats, you 
all need to know that you all have a wonderful representative 
in Mr. Gonzalez, who was very emphatic about us holding this 
hearing here. And we had planned on doing a hearing here, and 
then going on to California. And when California dropped out, 
there was no dropping out of coming to San Antonio. I can tell 
you that.
    All right. Mr. Fritz, we're going to let you give your 
opening remarks, and then we have questions. I understand that 
some of the panelists have to leave, but I have a couple of 
questions that we want to ask you before you leave. And any 
additional ones, we'll just give it to you in writing, and you 
can respond. Mr. Fritz.
    Mr. Fritz. Thank you, Madam Chairwoman and Congressman 
Gonzalez. Good morning. My name is Lance Fritz, and I am the 
Vice President of Union Pacific Railroad Southern Region, which 
includes our facilities and operations here in Texas. I'm 
pleased to be here today, and I thank you for the opportunity 
to testify.
    We recognize why this hearing is being held in San Antonio. 
All of us at Union Pacific regret the accidents that have 
occurred in San Antonio, and in Bexar County. We work very hard 
to prevent accidents of any kind on our railroad, and we have 
implemented numerous measures to help ensure a safe operating 
environment for our employees, and through the communities 
through which we operate.
    Having said that, I've been advised by our counsel not to 
discuss any specific incidents, as they may be subject to 
litigation. I'm here to tell you of the many positive things 
our employees are involved in, both here in San Antonio, and 
across our rail system.
    Our objective with these programs is to provide safe 
reliable rail service that supports this region's growing 
transportation needs. Over the past several years, we have 
increased employee training and testing. Our managers provide 
more ride evaluations, and they review more black box downloads 
to ensure compliance with our Operating Rules. In addition, in 
San Antonio we employ a state-of-the-art train simulator, so 
our crews can take advantage of advances in computer-based 
training and evaluation.
    What we have learned from our intense reviews has led to 
several systemwide operating rules changes, including changes 
in locomotive cab communication rules to avoid distractions at 
critical times. I would add at this point, including the use of 
cell phones.
    Working with our union leaders in the San Antonio Service 
Unit, we've implemented a safety center to facilitate daily 
start of shift communications for all our employees. In 
addition, working with Labor and the FRA, we have implemented 
an employee-led peer-to-peer process to reduce and eliminate 
human factor accidents in train operations. You've heard a 
little bit about that this morning from previous witnesses.
    We have invested heavily in San Antonio's rail 
infrastructure to help provide a safe operating environment. In 
the last two years, we've invested $62 million in track and 
infrastructure in this area. This year we're going to invest an 
additional $17 million.
    We've also supported job growth in the local area. We 
invested $26 million to support the new Toyota manufacturing 
facility. And you heard this morning, we've announced a new 
$100 million facility that's an inter-modal facility.
    Increased emphasis on fatigue management, rules compliance, 
improved infrastructure, and operating process improvements 
have made our operations in San Antonio more predictable. This 
has led to fewer overtime hours, and fewer hours of service 
tie-ups. We've also added a substantial number of employees, 
with the addition of 13 managers, and 166 agreement employees.
    As we've minimized variability in the operation, it has 
allowed our employees a more predictable, and a higher quality 
of work life. The activities are showing positive results. 
Since 2004, we've reduced the employee safety incident rate by 
over 25 percent, and reduced rail equipment incidents by over 
23 percent. Here on the San Antonio Service Unit, the employee 
safety incident rate has been reduced by over 24 percent, and 
rail equipment incidents by over 36 percent. We are proud of 
these gains, but clearly, more can be done, and will be done. 
Our goal is zero incidents.
    Madam Chairwoman, Congressman Gonzalez, let me conclude by 
saying that Union Pacific is committed to providing safe, 
reliable rail transportation, not only in San Antonio, but 
across our system, and we will continue to work towards that 
goal. Thank you.
    Ms. Brown. Thank you, Mr. Fritz. The Mayor and the Judge 
mentioned the needs to ensure that the local communities and 
emergency responders receive timely information on the 
hazardous material going through the communities. What is Union 
Pacific doing to make sure that this happens?
    Mr. Fritz. Union Pacific currently provides immediate 
response to the emergency responders when they request for the 
consist of a train that's been involved in an incident, so we 
do provide that information currently, immediately upon 
request.
    Ms. Brown. After an accident.
    Mr. Fritz. At the request of an emergency responder. And I 
would presume that's as a result of an incident.
    Ms. Brown. Okay. So they don't get that information prior 
to.
    Mr. Fritz. They get information from us that includes the 
types of hazardous materials that are being transported through 
the community. And they also receive from us special training 
in how to handle those hazardous materials.
    Ms. Brown. You mentioned that Union Pacific has employed a 
train simulator for San Antonio engineers and conductors. Do 
you provide the same training for all engineers and conductors 
in other states?
    Mr. Fritz. Yes, we do. We have these simulators across our 
system.
    Ms. Brown. And you mentioned that you're spending $62 
million, and an additional 17 in `07. But given the fact that 
30 percent of the accidents in Texas is caused by defective 
tracks, what do we need to do?
    Mr. Fritz. Yes, I'm glad you asked that question. We have 
numerous programs targeting track infrastructure, and the safe 
operating of track infrastructure. We use detector cars, as was 
mentioned earlier, in terms of trying to find rail defect. We 
use geometry cars. They try to find defects in the 
configuration of the track, the interaction between the rail 
and the ties. We use track inspectors, who are assigned 
particular main line territories, and they have defined 
responsibilities for inspecting those main line territories.
    We also design our maintenance of way, our programs for 
investing in track infrastructure and refurbishing it. We 
design those around the wear and tear that a particular main 
line is receiving from the type of traffic that is on it. All 
of those are targeting rail infrastructure to operate safely at 
the speed it is designed to operate.
    Ms. Brown. Union Pacific is one of the trains or rail 
industry that have indicated that you want to put a cap on--I 
want to say $200 million on damages. Can you respond to that? 
One of the things that our Chairman, Chairman Oberstar likes to 
do with the committee is remind us how we got to this point 
with freight, and how you receive the public tracks, and how we 
actually gave it to the industry and why. And so, there is some 
responsibility as far as the community is concerned. I mean, 
that's why you have to carry the hazardous material; but, in 
addition, you can talk about the new cars, the new generation 
of cars that will--I know the community--we think about the 
hazardous material, but we need the chlorine for the water in 
the community, or else we won't have the clean water, so it's 
kind of a catch-catch. But can you deal with that, please?
     Mr. Fritz. Yes, Madam Chairwoman. I am not intimately 
familiar with what we are attempting to move through Congress, 
if you will, as an industry. What I can speak to is the fact 
that we haul hazardous materials because we have to. We are 
under a common carrier obligation to haul those commodities. 
We'd prefer not to.
    Having said that, given that we do haul them, we design our 
routes around the safest available route. They represent a very 
small fraction, particularly TIH, or Toxic Inhalants, represent 
a very small fraction of the commodities that we haul.
    When it comes to San Antonio, some of those do move through 
the community, and some relatively fair share of that is 
consumed locally, as you point out, for things like water 
purification.
    When it comes to the cars that are hauling hazardous 
materials, we are working, as you heard this morning, with Dow 
Chemical and Union Tank Car to design what we would consider 
the tank car of the future. And it is specifically being 
designed to handle some of the significant stresses that are 
found in a train incident, or derailment.
    Ms. Brown. Okay. I'm going to turn it over to Mr. Gonzalez, 
and then we will ask questions to everybody else.
    Mr. Gonzalez. Madam Chair, I know that Representative 
Villarreal - do you need to be leaving in a minute, Michael? 
And Mr. Fritz, can you stay a little longer? Are you okay?
    Mr. Fritz. Yes, I can.
    Mr. Gonzalez. Do you mind if we take State Representative 
Villarreal out of order right now?
    Ms. Brown. Yes.
    Mr. Gonzalez. And finish with Mike, and then let him get to 
where he needs, because I know it's family-related.
    Ms. Brown. And she, also. Yes, she has family related. 
Okay. Would you just take your seat for a minute.
    Let me ask you, Mr. State Representative, one question. You 
mentioned the importance of clearing vegetation, like trees, 
bushes, and other along railways. Some states have laws on the 
books to do this. There is no minimum standards in clearing 
vegetation. Do you think that it should be particularly in a 
state that do not have laws in place? And maybe this is 
something that you can, as a State Representative, address.
     Mr. Villarreal. That was actually part of my comments, but 
thank you for bringing it to my attention. And the suggestion 
is that other states have laws that govern the clearing of 
trees and bushes near easements that support rail lines.
    Ms. Brown. That's correct. Also, can you get us information 
on, we were talking about a partnership between the state, 
local, and federal as far as the track relocation. I can see 
it's going to be a source of discussion and hearing, but I'm 
just interested in knowing what is it that the state will be 
willing to--because as we move forward, we want to be able to 
have a package. And even though we authorized 350 and the 
President didn't offer anything up, 350 million is nothing in 
comparison to the needs of even this community, much less the 
entire country. And I wanted to--I was trying to find out from 
my staff how much have we provided for the Iraqis for 
transportation and safety, and just in this area. And I 
understand it's over $1 billion so, I mean, you know, the 
people that actually pay the bill, seem to me they should be 
able to sit at the table also.
    Mr. Villarreal. I agree wholeheartedly with you. And what 
we are looking at is a cost of $2 billion in debt acquisition 
to solve the rail relocation. And I believe it's from Austin, 
around San Antonio. That's just our segment. There are 
proposals to extend that bypass all the way further north 
around Dallas. But for our region of the state, the capital 
improvement cost is about $2 billion. And to issue that debt, 
we're looking at, I believe, a figure of $200 million to 
capitalize that.
    And the last session, we meet once every two years, the 
last time we met we created a fund in order to issue debt and 
carry out these kind of projects. This year, our challenge is 
to put money into that fund. Any help that can come from the 
federal government would be greatly appreciated. If it's a 
matching program, where you tell us, State of Texas, for every 
dollar you put up, we'll match you a dollar, or even 50 cents, 
we would jump on that. And so I would encourage Congressman 
Gonzalez, and you, Madam Chair, to put forth those kind of 
ideas. I think they would be well received by our state 
government, because today, we don't have that kind of 
partnership with federal government. We're looking at it solely 
as a state and local investment that's going to be carried just 
by the state and local taxpayers. We'd love to partner with the 
federal government.
    We believe that to really solve this problem, it's going to 
require partnerships. The railroad carriers are not going away. 
We depend on each other.
    Ms. Brown. And I think they should be at the table, also. I 
think it should be--all of us should be--the stakeholders would 
benefit from it, the citizens, so I think everybody should be 
at the table.
    Mr. Villarreal. I agree. In fact, I filed legislation 
applying a sales tax on railroad cargo. I've discovered that I 
can't only apply a tax just on the rail lines, without 
including truckers. I think that can be fixed. I think it's 
going to be a challenge to pass that, but I believe that that 
kind of solution makes sense, because as you heard earlier from 
Mr. Fritz, Texas is generating a lot of economic activity, not 
just for itself, but also for the railroad companies. And 
that's why they're making these investments. To tax them, and 
to dedicate that new money to infrastructure improvement seems, 
to me, to be a win-win on both sides. It brings forth better 
infrastructure that they can rely on, and also more public 
safety for our citizens.
    Ms. Brown. All right. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Madam Chair. Mike, you pointed out 
that, I think, when the session started this year in Austin, 
you were pretty ambitious about your plan, which I really do 
commend you. And I think, basically, you had to scale back, but 
I still say what you're doing here is so important, and it's 
contingency planning. And I know you're thinking in terms of 
being proactive, and ahead of it, and preventive in nature. But 
I wanted to read to you the problem that you faced just a 
couple of months ago, and this is from the materials that are 
prepared by our staff on the committee.
    ``A state may adopt or continue to enforce an additional or 
more stringent law, regulation, or order only in instances 
where the law, regulation, or order is necessary to eliminate 
or reduce an essentially local safety or security hazard.'' But 
then this is the kicker. ``Is not incompatible with a law, 
regulation, or order of the United States Government, and does 
not unreasonably burden interstate commerce.''
    The pre-emption standard has been a concern among some 
states and localities that have tried to adopt regulations 
requiring trains to operate at lower speeds and railroads to 
re-route hazardous materials around heavily populated areas. 
And I think you pointed out, this is a federal issue. It is a 
federal problem. Like so many things, we fail to act, 
communities then attempt to move forward, and what happens, 
basically, you don't have jurisdiction and such. And the 
immigration issue is a great one. Congress is frozen, it's grid 
locked, you have communities moving, and I believe in the wrong 
direction; nevertheless, they're moving. So we have something 
like that here, and I'd like to tell you that Maria's 
observation that this is a new Congress, this is a new 
Chairwoman of this subcommittee. There's a new Chairman of the 
big committee, and we're going to be as aggressive as we can.
    There are limitations, no doubt, as to what we can pass. 
And I don't want to get people's hopes up on something on the 
scale of relocating rails, when it would be $2 billion or 
above, because every community is similarly situated. If we 
start multiplying that by the billions, it's an incredible--but 
there are so many things in your suggestions that I think we 
can do to achieve tremendous safety, never to the degree that 
if we relocated something.
    Ralph points out, though, well, wait a minute. Where are 
you relocating it? Why are those people any less important than 
other people, and so on. It's usually density in the number of 
people, I understand that.
    As far as monies, I'm not sure, and I think the Chairwoman 
is in a better position down the line to identify what would be 
a realistic federal contribution, Mike. And I don't know, just 
because I know that every community in the United States is 
going to want some assistance with relocating. And I think some 
things can be relocated without great disruption, or tremendous 
cost. But I wanted to thank you for your suggestions today, 
which from the state level, making these recommendations to the 
federal level. And I will definitely--I know that the 
Chairwoman will make these known. They're part of the record, 
and Chairman Oberstar has been a real champion on rail safety 
since he got there. And he's been there quite a while, but if 
there's anything else that you need from us, please always feel 
free.
    I know that you have some obligations with the family, and 
unless the Chairwoman has anything else, I just want to say 
thank you for all your work.
    Ms. Brown. I want to thank you also, and we will follow-up 
with any additional questions and getting you some additional 
information on what other states are doing.
    Mr. Villarreal. Madam Chair, thank you for bringing our 
federal government to our community.
    Ms. Brown. It's your federal government.
    Maria, I had a couple of questions for you, because I 
understand that you have some family obligations, also.
    You mentioned that Alvarez, his family and young daughters, 
have been homeless since the October 17th, 2006 train accident. 
What have Union Pacific done to compensate the Alvarez family 
for their damage?
    Ms. Berriozabal. My understanding, Madam Chairwoman, is, 
they do have an attorney, and they have been working on the 
issue. Their house was demolished by the city, and they're in, 
I don't want to say litigation, but they are working with their 
lawyers.
    My understanding is that right now Union Pacific will 
provide them the market value of their home, and to us in the 
community, their neighbors, we think that's not enough. There's 
been pain, there's been suffering. They lost a home. There was 
a long history. It was very painful for me to see some events 
where the whole family gathered to say goodbye to their family 
home. There's costs, intangible costs involved in these 
situations. But that is my understanding, that the Union 
Pacific will give them the market value of the house.
    Well, that's good, but we feel that more needs to be done, 
not just for them, but other families. It's not just a house 
that they lost. They lost lives, a lifetime of history, of 
memories.
    Ms. Brown. I guess my question is, are these people still 
homeless?
    Ms. Berriozabal. No. No, no.
    Ms. Brown. Oh.
    Ms. Berriozabal. I used that word, they lost their home.
    Ms. Brown. Okay.
    Ms. Berriozabal. But they have a place to stay right now. 
It's temporary, but they have a place to stay.
    Ms. Brown. What are some of the recommendations, that if 
you could get your top one, two, or three recommendations, what 
would they be?
    Ms. Berriozabal. One thing that I would like to reinforce 
is what the Congressman was asking other people from Union 
Pacific. There's got to be a way that we, as citizens, know 
what's crossing our communities. I understand the whole 
Homeland Security situation, but it's very scary. And I've been 
talking to people. What I did, I sent out a notice when the 
Congressman's office advised me that I would, perhaps, be 
invited to be a witness. And I'm very conscious that I did it 
as a member of a community. It's not just me coming, it's my 
community, so I sent out a notice through my email asking 
people, tell me what I should say, so my little statement is a 
compilation of what people wrote, and said, ``This is what 
we're worried about.'' And one of them is, we don't know what's 
going through our railroad tracks. We're scared. And ever since 
the issue of Macdona, another one is the care of the railroad 
property. The city can't go in there and clean it up. It's not 
their's. And the debris, sometimes the danger in flooding 
because of inappropriate care of the railroad.
    I was on the City Council for 10 years representing this 
area, and one of my biggest problems was trying to figure out 
how do you get a hold of this Union Pacific company that seems 
so far away from our daily life. I mean, who do you call? 
There's an 800 number in the little boxes, but they're not 
going to come and clean the debris.
     Checking the railroad ties regularly, seeing that they're 
in proper shape, the lights. You know, you trust that when 
you're coming to a railroad crossing and there's a train 
coming, you trust that the light is going to work, and that the 
little arm is going to come down. Those things for us who are 
right here are inconvenienced every day because of it, we just 
want to make sure that they're taking care of their property.
    Ms. Brown. I agree with you. And, in fact, I went to one of 
the training simulators, and clearly, a lot of our citizens may 
feel that they can go around those railroad crossings. And let 
me tell you, when the engineers see it, if you're on the 
tracks, it's too late. They can't stop, and so it's very 
important that we educate the community, that you can't, if the 
train is coming. I mean, just that little will prevent some 
accidents.
    Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Madam Chair.
    Maria, I know that--I think Mike Villarreal had a Town Hall 
in the area regarding the accident and such. I know you've been 
very active, and that's why you were immediately identified. 
And I appreciate that you were willing to testify, but also, to 
canvass the neighborhoods and find out what's on their minds.
    When it comes to dealing with Union Pacific, I will tell 
you, we've had our differences of opinion and such. And maybe, 
because I'm a member of Congress, we get treated differently or 
something. They respond timely, I will tell you that. They may 
not go through all the recommendations and suggestions, and I 
think the Mayor and Nelson Wolff said that that has not been a 
problem. The communication is good. And I think there's follow-
through to the extent that there's an agreement.
    What has been your experience, because I think they're much 
more sensitive than ever before because of the accidents, and 
what's transpired, and lessons learned. But have you, yourself, 
experienced some difficulty communicating with a 
representative, or maybe trying to assist the individuals whose 
home was--it was so damaged, it had to be demolished.
    Ms. Berriozabal. We agree. We agree.
    Mr. Gonzalez. Yes. Have you--what has been your experience 
when you attempt to assist people in their dealings with Union 
Pacific?
    Ms. Berriozabal. Well, that's why I mentioned when I was on 
City Council. I have to say that like right now, until this 
issue came up, it's something that you really don't think 
about. Like I said, the first time we started thinking about it 
again is when this happened to the Ralph Velasquez family, 
because these are very close friends of our's, of a lifetime. 
But I was referring to the time that I was on City Council, and 
we would have that problem. But, I guess, Congressman, the 
issue is that sometimes we don't even--it doesn't even enter 
our mind that we can pick up a phone and call somebody about 
it. And, actually, entities like Union Pacific, with the 
tremendous power they have, should really have community 
relationships, community relations people that we--I work with 
my neighborhood association. In fact, I brought our 
neighborhood association president to be with me today. But 
just to have somebody that we can call, and can come to 
neighborhood meetings, that can do Town Hall meetings, instead 
of us calling them, for them to say here we are. Let us tell 
you how we work. Let us tell you about the cargo. Let us tell 
you why we have to cross your city with this cargo. Just some 
communication.
    Companies have community relations departments. Do they? I 
don't know. So when you ask me that, like it doesn't even enter 
my mind that I can pick up a phone and call them. That's how 
far they seem from me. And I'm a person that pretty much can 
find answers when I need them, because people call me. To this 
day, I get a lot of calls from people just on all kinds of 
things. But I was very surprised when I sent out my little note 
on, does anybody have any suggestions for my little statement 
that I'm going to give. All these people writing and saying the 
hazardous cargo, the condition of the railroad by their 
neighborhood, and then the concern that some of the most 
vulnerable populations are the ones that live close to the 
railroad. A couple of them were from people from Park--you've 
very familiar with Park Apartments by San Pedro Park. It's a 
high-rise. People are on their little walkers. They were saying 
well, if there had been a toxic chemical there on Hickman, what 
would we have done? Well, I can't tell them. They're in 
walkers. Do we have a plan for that? And it's not just the 
federal government. We, as the city, need to do that.
    And, Madam Chairwoman, I'll be very honest to say that we 
really hold our local officials accountable, too. I mean, we're 
not just demanding, or speaking out to our federal government 
because you're here. We work with our local officials, and 
we're very proud of what they have done. But we also need to do 
a better job locally of responding ourselves. What do we do? Do 
you run to help your friends, or do you run away? And how do 
you know what to do?
    Ms. Brown. Thank you for your participation today.
    Ms. Berriozabal. Well, thank you, because your coming here 
has done a lot.
    Ms. Brown. I know Mr. Fritz heard what you said about the 
big company having community relations, and having someone that 
is working with the community and interfacing. I'm sure he has 
this team available, but we don't know the number, and we don't 
know who the person is, and so they probably don't need a 
bonus, because the community needs to know who to contact.
    Ms. Berriozabal. Thank you very, very much.
    Ms. Brown. And I know you heard that.
    Ms. Berriozabal. Yes.
    Ms. Brown. Thank you.
    Ms. Berriozabal. You give us hope. We know you can't do 
everything, but to be able to talk to somebody is very 
important. And I will give my report to my community on what 
happened today.
    Ms. Brown. But one of the things I do think is important, 
that government should be personal and up close, and that's why 
we're here.
    Ms. Berriozabal. And you're here. And we thank you, and we 
recognize that. Thank you very much.
    Ms. Brown. Okay.
    Mr. Gonzalez. Thank you.
    Ms. Brown. Ralph, I have a couple of more questions for 
you, and then we'll go back to Mr. Fritz, before we open it up 
to the public. And my question to you is just very general.
    You are a former rail employee, and have knowledge of the 
industry, and one of the major causes of accident have been 
human factors. And I understand one of the crews had worked 22 
hours without breaks, so can you give us some recommendations 
in that area? And any other closing comments that you would 
like to make.
    Mr. Velasquez. Yes, ma'am. I think the regulations are 
already in place. We've got the Hogg Act, make them adhere to 
it. It's just enforcement. I mean, the rules are already in 
place, just have them enforce it. There are many things that we 
can work together, if we just communicate. And if we agree to 
communicate, and we agree to do something, then if we don't do 
it, then we need to be punished, or held accountable. But yes, 
you've got all kinds of already rules. And I understand 
business, and a lot of times the bottom line runs a lot of 
things, but corporate responsibility should never be negated at 
the expense of public safety.
    With that said, I think the corporate relations between 
them and the Labor unions could improve. Sometimes, Labor 
unions are pretty terco, terco meaning stubborn, but it works. 
You know, I mean, as long as they can communicate and work 
together, that's important.
    Ms. Brown. What we're discussing, as we speak, as we move 
forward with the safety bill, and the question is whether or 
not Congress need to weigh-in, because Labor and Management 
don't seem to be able to resolve this issue of limbo time and 
fatigue. Do you want to weigh-in on this?
    Mr. Velasquez. I understand that. And in my opinion, it's 
just simply bad planning. You know, you've got a critical path 
that you've got to follow, well, follow it. If you know you're 
going to have a train crew waiting out in Uvalde somewhere, and 
they're gong to stop right there, well, then you should already 
have the limo waiting for them, instead of having them just sit 
there for hours and hours. And then, you know, a lot of times 
they run back-to-back.
    Just follow the rules. You know, the rule says hey, you've 
got to have X amount--see, because one of the little things 
that they like to do is, if you--I think it's 12 hours. I'm not 
exactly sure. I think it's 12 hours, and so they clock off at 
11:59, or 11:58, 11:57. Well, that's kind of cheating a little 
bit, you know. Let's just do it right.
    We were talking about the emergency 911 things. And you 
were talking about the manifest, and things like that. Well, we 
had--the Councilwoman Herrera had been talking about, was the 
fact that if we had a 911 upgrade to work with the railroads 
and the 911 system to create--and it's easy, with the 
technology we have today, if there is a derailment, just like 
there was at Hickman, I happened to go, and they never broke 
the lines. You're supposed to break the line so the emergency 
systems can go through. The lines were still stuck for hours, 
and so somebody has to go way around to get, in case there was 
an emergency. But there were rules already in place, you have 
to break them. They didn't do that.
    But on a 911 upgrade, to include a border or a rail trace, 
that would identify it to the dispatcher, and the dispatcher 
would automatically know what is on the manifest, and he or she 
could relay that to the first responders. And the first 
responders, with the proper training from the railroads and the 
chemical companies, know how to respond. That's why they 
created, or they're in the process of negotiating creating the 
first regional training facility outside of Pueblo, Colorado, 
here in San Antonio. And that's going to go to benefit not only 
the firefighters and the first responders in San Antonio, but 
that's also going to benefit all the volunteer fire 
departments. These mom and pop communities, who don't have the 
money to send them to Colorado, and they could train them here. 
And that's what I mean by partnerships. You've got corporate 
and community partnerships to create a better safety system.
    Ms. Brown. All right. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Madam Chairwoman. And, Ralph, 
thank you for sharing what I know is a really emotional 
experience, that will continue to be an emotional one for you 
and your family. So special thanks to you.
    And I don't want to violate any agreements or anything that 
you may have, because I don't know of them, but I do know some 
general, like the general nature of some negotiations that you 
had with Union Pacific as a result of your claim on your behalf 
and your family. And, of course, there's the monetary part, 
which we discussed about caps, and all that. I'm going to leave 
that alone.
    But my understanding is that there are aspects of your 
negotiations with Union Pacific that were not monetary in 
nature, but rather maybe corrective action, or policies, or 
procedures on the part of the railroad regarding safety 
practices, and such. Is that correct?
    Mr. Velasquez. Yes, sir.
    Mr. Gonzalez. And I guess what I'm trying to get at is, I 
just think that somewhere there's room for the communication. 
There's room to reach some sort of agreement, and then 
legislation takes over. You know what I'm saying?
    Mr. Velasquez. Yes.
    Mr. Gonzalez. And I think you've been alluding to that. 
We've got rules, we can just go ahead and enforce them. But, 
also, there's things they can do, outside the rule making 
process and so on; like Maria was saying, it's about community 
relations and things like that.
    In your opinion, and the extensive negotiations I would 
imagine during the course of your litigation with Union 
Pacific, how would you characterize their cooperation, and how 
receptive they have been to your recommendations made by you 
and your attorneys?
    Mr. Velasquez. I would like to commend them. They said that 
this was the first time in their history that anyone has ever 
negotiated for a community benefits package, and that's what we 
did. We didn't go for ourselves. You know, there was something 
there, but the primary thing was the community benefits 
package, because we didn't want to see this happen again. We 
didn't want to see it happen to our neighbors or community, or 
anyone else. And that was very, very strong. And I commend the 
railroad for being very receptive. I know it caught them off-
guard, because no one has ever asked them for something like 
that. And it was very unusual, to say the least, but then we're 
an unusual family.
    Mr. Gonzalez. Second that. Second that. All right. Thank 
you very much, Ralph.
    Mr. Velasquez. Thank you.
    Ms. Brown. Thank you.
    Mr. Velasquez. Thank you, ma'am.
    Ms. Brown. Thank you very much for your testimony.
    Mr. Fritz, I want to go back before--and I just want you to 
reiterate for me what sort of technology would help prevent 
train accidents. Can you just go over that once more?
    Mr. Fritz. What types of technology help prevent train 
accidents?
    Ms. Brown. Yes.
    Mr. Fritz. Well, they're numerous.
    Ms. Brown. For example, would you suggest railroads to 
implement some form of Positive Train Control? We've talked 
about that. We talked about the human factor, we talked about 
fatigue.
    Mr. Fritz. Yes, ma'am.
    Ms. Brown. I just want you to just go over it, since you 
are representing the industry here today.
    Mr. Fritz. Yes, ma'am. I will start with Positive Train 
Control. Union Pacific is on record that we are aggressively 
pursuing Positive Train Control. We are in the process of 
developing the technology for two tests on our system. We 
anticipate running those tests in the near to medium term 
future.
    I would tell you that from what I heard in the testimony 
today, it sounded like that technology is already readily 
available, and can be pulled off the shelf. I assure that is 
not the case, otherwise, we'd have it implemented. It is more 
complex than that. Complexity is around how to control a train 
of different weight cars, different lengths, over different 
types of terrain in a manner that doesn't shut the railroad 
down, from the standpoint of being able to stay fluid. So that 
is a very complex issue to be addressed.
    The BNSF has proven a prototype system. I know that they 
will continue to develop that system, and we are also 
developing a system along the lines.
    To address your question from the standpoint of all the 
things that railroads do to prevent train accidents, let me 
break that up into track-related, or infrastructure-related 
activities, employee-related activities, and then let's say 
just systems and processes.
    From the standpoint of track, it has been mentioned today 
already that we employ technology in the form of ultrasonic 
testing and detector cars; also, technology in the form of 
geometry cars. We also use algorithmic technology to determine 
where we should be investing our dollars.
    I'd like to mention, we spend about 20 percent of our 
revenue every year on investing in the railroad. The vast 
majority of that goes towards maintaining the infrastructure 
that we've got right now. That's a phenomenal number. Last year 
it was $2.8 billion. We target that investment so that it's 
spent at the right spot, so that it does prevent rail 
accidents.
    Concrete ties were mentioned today. We are implementing 
concrete ties on our highest density, heavy haul portions of 
our railroad. We're implementing those in a prudent but rapid 
fashion. We also happen to use composite ties in areas where 
wood ties tend to degrade relatively quickly. I use those, to 
the extent they're available, I use them extensively in the 
south. So, on the track side, we design our systems, we employ 
technology, all with a design of running at design track speed, 
and doing so safely.
    As regards our employees and human factor derailments, it 
was mentioned today that Labor and Management need to work 
better together. I fully agree. We're driving those 
conversations and that cooperation. Here on San Antonio, on the 
San Antonio Service Unit, there's a program that we call the 
Cab Red Zone Program, CAB, an it is targeting safe operating 
behavior in a peer-to-peer observation in the cab of a 
locomotive. It's unique in the rail industry. We are getting, 
what we would consider, positive results from it. It is showing 
up in statistics on the service unit from the standpoint of 
reduction in human factor derailments, and human factor 
incidents. And that was created jointly between Labor, 
Management, and the FRA. The FRA is maintaining a position in 
that program.
    We also use technology as regards making sure that our 
train crews are trained to operate safely and effectively. We 
use, as you heard, train simulators, so that conductors and 
engineers know the territory they're running on, know how to 
run on it safely. We go through extensive rules classes before 
any new hire has the ability to actually operate a piece of 
rail equipment. If they were to actually get into the seat of 
the locomotive, as the engineer of the locomotive, we take them 
through another series of extensive months of training prior to 
being able to operate the locomotive as an engineer.
    And then as regards our systems, we implement rail 
signaling, signalization on our main lines, where we can, as is 
prudent in terms of investment. We're doing that so that at 
some point in the future, and I'd prefer in the near future, 
our main lines are signalized. That takes away the dark 
territory discussion, and it's also in our railroad's best 
interest. That gives us derailment detection or broken rail 
detection, which--I meant broken rail detection, which is very 
important to us. Because at the end of the day, Madam 
Chairwoman, my employees here in San Antonio, are citizens. 
They're interested community members. We do not want to have 
incidents in this community. We do everything in our power to 
improve our safety record, and our safety policies and 
procedures, so we avoid them. I mentioned, our ultimate goal is 
zero incidents.
    Ms. Brown. Thank you. I guess I do have a couple of other 
follow-up questions. The incident that we've been talking about 
with the 22 hours, and the fact is that you said you're going 
to have zero tolerance. I guess I'm interested in what 
provisions are you putting in place so that that limbo time is 
correct? I mean, I've heard a lot of discussion from the 
industry about it. We've had a hearing in Washington on it. I 
don't think you were there, but the question is, that takes 
planning and coordination. I understand that there are going to 
be some emergency times, some train is going to break down, and 
you need the authority to be able to deal with emergencies, but 
it should not be day-to-day operations. I mean, it's just not 
for the safety of the industry to have your people out 
somewhere in the middle of nowhere for five hours.
    Mr. Fritz. Madam Chairwoman, I would agree with you. We are 
aggressively reducing limbo time, at least the portion that is 
within our control. You did mention that limbo time will 
happen, periodically. A great example is when we suffer a snow 
storm or an ice storm, which we have at the beginning of this 
winter, earlier in the year. And when that happens, the safest 
path is to keep the crew on the train until we can figure out a 
way to safely get them tied up at their destination.
    But having said that, regarding the limbo time that is a 
failure, if you will, a cost of quality, we are working with 
our van companies; that is, the companies that provide 
transportation. We are working on our own systems so that, to 
Mr. Velasquez' point, we plan better, further in the future for 
where a train is going to tie up, and being able to get that 
crew off that train, and get them to their official tie-up 
destination as expeditiously as possible. Because, again, it's 
in our best interest to have rested crews, and crews with 
positive work attitudes.
    Ms. Brown. One other thing. We, in the last couple of 
Congress', you all were getting, I think it was 4-1/2 cent 
deficit spending, and you've given it back to the industry. And 
we're looking at additional ways that we can support industry, 
but can you tell us how much, maybe you can't, but maybe you 
can put it in writing, how much have you received, and how has 
that investment gone into the infrastructure of your railroad?
    Mr. Fritz. Madam Chairwoman, if I understand what you're 
asking, you're asking how much money have we received?
    Ms. Brown. Of the gasoline tax. We were taxing you 4-1/2 
cents.
    Mr. Fritz. Right.
    Ms. Brown. Yes, 4.3 cents, and we've done away with that.
    Mr. Fritz. Yes.
    Ms. Brown. And with the understanding that the industry was 
putting it back into the infrastructure of the railroads. And, 
I guess, my question is, how much have you received, and how 
much has gone into--reinvested into your railroad?
    Mr. Fritz. I'll have to get back with you on that. My 
understanding of the 4-1/2 cent tax that we were paying was a 
deficit reduction tax.
    Ms. Brown. That's correct.
    Mr. Fritz. And my understanding is that we received 
virtually none, if any. But I will have to verify that, and get 
back to you in writing.
    Ms. Brown. No, I know that you've received, because we're 
no longer doing it, so you have received. But why don't you 
just check with your staff.
    Mr. Fritz. I will.
    Ms. Brown. Okay.
    Mr. Fritz. We are no longer being taxed that tax.
    Ms. Brown. That's correct.
    Mr. Fritz. That is correct.
    Ms. Brown. So the question is, how much money have you 
received from that tax, that we no longer doing it?
    Mr. Fritz. Oh, I'm sorry. I apologize. So you're asking the 
question, with the tax relief.
    Ms. Brown. Yes.
    Mr. Fritz. That has provided cash flow.
    Ms. Brown. Yes.
    Mr. Fritz. How much was that? I can't give you an exact 
figure.
    Ms. Brown. And how are you investing it?
    Mr. Fritz. I will tell you that all of our cash flow is 
being either invested in the railroad and infrastructure. And I 
mentioned we invest at about a 20 percent of revenue level. 
Last year was a $2.8 billion spend, this year's game plan is a 
$3.2 billion spend. It either goes into the infrastructure 
investment. It pays employees, or it goes to a return for our 
shareholders. But I will get you an exact figure of what that 
dollar figure is in terms of relief of that tax.
    Ms. Brown. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Madam Chairwoman. Mr. 
Fritz, a couple of things. The first observation, and as full 
disclosure, I am not a formal member of the Committee on 
Transportation, so, obviously, I not a formal member of the 
subcommittee. It's just my privilege to participate, so I don't 
speak for any of the members.
    My own impression of it, though, as a member of Congress, 
we appreciate the necessity many times for uniformity when 
you're dealing in interstate commerce. And if you're in 
transportation, if you're in the rail, we understand that, and 
so we recognize that states and localities would like to do 
many things on their own, but that could very well complicate 
matters. And as you noticed, I was very frank with my state 
legislator, and my Mayor, and my County Judge, that that may 
complicate things. We may never be able to have that kind of 
authority vested, other than the federal government. But the 
federal government has to do right by the localities and the 
states, so that's first understanding. And I want you to know 
that.
    The other is, railroads are indispensable. We really need 
you. This economy needs you. We turn the lights on here today 
because we have, in all respects, a coal-fired plant over here, 
and that--if Wyoming coal wasn't being delivered as it is by 
rail, we'd have a lot of problems on our hands.
    I think someone alluded to Toyota, a brand new plant out 
there. Well, how do you think the finished product gets 
distributed, so we understand the need. And I think we have to 
have this partnership. And there is no reason why there 
shouldn't be some sort of meeting of the minds.
    The thing that has troubled me for some time has been this 
fatigue factor. And I think we had Mr. Cothen here, and I may 
be wrong, Madam Chair, as to where we are in this whole debate. 
And my materials are a couple of months old, but they were 
prepared by staff, and they're excellent, by the way, whoever 
put all this together. See if I can try to get a handle on this 
fatigue so that when I report to my local officials and such, I 
say we're doing something on not just identifying the main 
cause of the accidents, especially in San Antonio, which 
resulted in fatalities.
    ``The Department of Transportation, on numerous occasions, 
has formally submitted legislation to reform the Hours of 
Service law, supplemented with fatigue management requirements, 
or authorize the FRA to prescribe regulations on fatigue in 
light of current scientific knowledge. Currently, the statute 
contains no substantive rule making authority over duty hours. 
The FRA's lack of regulatory authority over duty hours, unique 
to FRA, among all the safety regulatory agencies in the 
department, precludes FRA from making use of almost a century 
of scientific learning on the issue of sleep/wake cycles, and 
fatigue induced performance failures.''
    Do you think we need to be making changes? I know that Mr. 
Cothen had alluded to, we're making some progress. And I don't 
know if that's a matter of just suggestions, recommendations, a 
meeting of the minds, and such, but do we finally have to do 
something legislatively? Like I said, I'm not speaking for the 
committee. They may be way ahead on this thing, and they could 
probably inform me now or later on it, but what is the position 
of Union Pacific as far as rule making authority vested in the 
FRA, to come in and simply tell you, as the employer, and then, 
of course, the employee that may be represented by the unions. 
Do you all have a position on that?
    Mr. Fritz. Yes, sir. We would prefer to be able to work 
this out with our unions. Clearly, as stated already, that 
would be the best overall outcome, and we're working very hard 
to do that.
    Absent the ability to create a more conducive work/rest 
cycle that would satisfy all parties, both Labor and Management 
and the railroad industry, we believe that the responsibility 
should reside with Congress and the Rail Safety Act for Hours 
of Service legislation.
    Mr. Gonzalez. But to specifically address it, as I just 
read this portion from the report that was provided me, does it 
appear that we need to do more to vest some sort of additional 
authority, to get into the specifics. If the parties can't work 
it out, and to be honest with you, I think, Madam Chairwoman, 
they probably have the best of all worlds, because if you have 
the employer, let's just say that's corporate America or 
whatever, and you have those members of Congress that obviously 
would be on your side. And then you have the unions on the 
other, and you have other members of Congress, and both of you 
all are saying the same thing, it's let us work it out, let us 
work it out. But the truth may be that it hasn't been worked 
out. And I guess I'm just trying to figure out--I know that 
your position is, we're going to continue working on it. 
There'll be recommendations. But somewhere along the way, if 
it's not worked out, do we simply say we're going to vest that 
authority in the FRA, like we do other regulatory agencies, and 
they go forward.
    My last observation is, I know that you say the technology 
may not be there, or whatever. I just find it almost impossible 
to believe that Positive Train Control technology hasn't 
reached a state where some of it would have been adopted, maybe 
in its very primitive, and its expensive form. And it's not as 
simple as the Volvo commercial, where they're driving and it 
tells the driver that there's a motorcyclist to the right in 
that blind spot, or the driver who's fumbling with something 
and comes to another stationary object, and it warns him. But 
surely, there's something out there for railroads, and there 
has to be some aggressive adoption.
    Again, I've been informed today that it appears that we 
have some technology that's reached that point, but I think you 
all definitely have to be much more aggressive.
    My last observation is going to be on the public relations. 
You heard Maria Berriozabal, that the neighbors worry and such, 
and it is about public relations. And I know that you all have 
endeavored to do more here in San Antonio, for all the obvious 
reasons. But truly, take it from members of Congress, 
politicians, elected officials, people just want to know 
they're being heard, and the questions have to be answered. And 
sometimes it's simply saying, you know what, we messed up. Our 
employee was at fault, applied too much pressure, or whatever 
it is, on the brake and created the accident.
    You want to know what hazardous materials are coming 
through here. Well, we can't give you specifics for some 
reasons, but we'll tell you, it's minimal, or it doesn't even 
come through this area, to be honest with you. But these are 
small things, but you hear the citizens asking for that, that 
would go a long way.
    Those are just my own suggestions and recommendations. I 
will definitely follow this issue closely, just because of the 
accident history in this city, but I surely will defer to the 
expertise that will be demonstrated by Chairman Oberstar and 
Chairwoman Brown. And I yield back. Thank you so much.
    Ms. Brown. I personally want to thank you for coming. I 
know you've heard the comments of the committee, and comments 
from the citizens. And I know that you will govern yourself 
accordingly.
    The current law--and thank you very much.
    Mr. Fritz. Thank you.
    Ms. Brown. Thank you, again. I want to thank you for being 
here today, and for your testimony. And you need to know that 
as Chair, the railroads--I just didn't happen to get this 
committee. I've been involved in transportation for over 25 
years, and been on this committee for 15 years. And when I was 
born, I used to tell people the Silver Meteor ran through my 
house, and my brother has worked with the industry for over 30 
years. And I think the industry is very important to the 
community. And for years, it's been operating in the red, and 
now it's in the black. And I tell people all the time, we're 
not competing with Georgia and Alabama, we're competing with 
the Chinese and other countries, and so we need to stay on top 
of it, and we need to work together. And the key, in my 
position, is that I want to always be fair, but I think there 
are some things that the industry can work out without Congress 
telling them to work out.
    If we look at the Fatigue law, it's over 100 years old, and 
so, I mean, modern technology and people's goodwill, you all 
can solve this, and we don't have to. But it's in your hands, 
and we're looking forward to leadership from people like you, 
Mr. Fritz.
    I want to thank the witnesses for their valuable testimony, 
and members for their questions. Again, the members of the 
subcommittee have additional questions for the witness, and 
we'll ask you to respond in writing.
    The hearing record will be held over for 14 days. And with 
that, we have 14 people from the community that would like to 
make testimony, or comments. And I'm going to turn it over to 
Mr. Gonzalez to take their testimony. I'm going to be right 
here. And I know this doesn't sound like very much, but in 
Congress, every morning we have one minute that we can come and 
make our comments, our remarks, and then you can extend and 
give additional comments in writing. So now this is your 
chance. We have several people, and I'm going to turn it over 
to Mr. Gonzalez to chair this portion of the hearing. Have them 
come up.
    Mr. Gonzalez. If you will come up and take the podium 
there, and use that microphone. And the Chairwoman has 
indicated it is one minute; but, of course, we'll entertain 
something beyond that at a later date. I'm going to go by the 
order that I have here, so if it's, I didn't take this down. 
Glenn Sellars. Glenn.
    Mr. Sellars. Thank you for this meeting, Congressman. I've 
been working with Stephanie, and a lot of the things I'm going 
to say, you have already in your possession. I never did get a 
definitive answer on the cell phone, but I do have it for you 
now.
    On the Union Pacific policy, cell phones are to be used for 
company use only, but a dispatcher will call a dispatcher on a 
train and say, ``Do you have a cell phone? Please call me.'' 
And the dispatcher will relay sensitive safety matters by cell 
phone to the conductor. That's number one.
    Fatigue. Fatigue, well, first let me tell you about myself. 
I've been with the railroad since 1966. I got 1.7 million miles 
as an engineer. I never had a derailment. I never had a 
personal injury with my crew members. I know railroad back and 
forth, and the Union Pacific, I wish you would ask the Vice 
President here; the employees must stay marked up or available 
91 percent of the time. That's nine out of ten days they have 
to be available, but why is there 100 people laid off, 
furloughed here in San Antonio right now?
    Mr. Gonzalez. Glenn, I'm going to have to hold you to that 
one minute. Actually, I've gone to a minute and a half.
    Mr. Sellars. Sir?
    Mr. Gonzalez. I have to hold you to that one minute, 
because that is the Chairwoman's order.
    Mr. Sellars. Is my minute already up?
    Mr. Gonzalez. Oh, believe me, one minute--members of 
Congress, if we can do one minutes in the morning in Congress, 
we figure just anybody can do one minutes. But we'll follow-up. 
And you know Stephanie will take your name right now, and we do 
want the benefit of what you're telling us today based on your 
experience, so if you'll just--and, of course, you know 
Stephanie. But if I don't cut this--because the Chairwoman, 
we're going to have to have another meeting, and then we're due 
over at the Editorial Board, so I apologize.
    Mr. Sellars. I appreciate the Congressman holding this 
meeting, but, Congressman, please let me say one final thing.
    Mr. Gonzalez. Yes, sir.
    Mr. Sellars. Make it a federal law, make it a federal law, 
remote controls cannot be used while using hazardous material. 
Please make that a federal law.
    Mr. Gonzalez. Definitely we take that under advisement. And 
I think there's some action on that. It's Laura or Lara 
Cushing.
    Ms. Cushing. Good afternoon. My name is Lara Cushing I'm 
with the Southwest Worker's Union. We're a grassroots 
community-based organization representing 2,500 families in San 
Antonio that are concerned about economic and environmental 
justice.
    San Antonio is crisscrossed by train traffic, and 70 
percent of that is merely passing through the city on its way 
to somewhere else. The low-income communities of color that we 
organize on San Antonio's southside are boxed in by tracks, and 
could be trapped without an escape route were an accident to 
occur. There are over 140 train crossings without over or under 
passes, and 162 hospitals or schools within a mile of tracks.
    In seven short months in 2004, 21 derailments occurred in 
Bexar County, five lives were lost, and dozens were injured. 
However, in the two and a half years since then, we still don't 
have even a basic emergency notification system, or evacuation 
plan for the city. Instead, we've seen more accidents, 
including the one last fall that Ms. Berriozabal spoke about.
    Southwest Worker's Union feels that no amount of measures 
to reduce human factors in accidents will be adequate to 
protect our health and safety. As long as hazardous material is 
carted through our communities, there are going to be 
accidents, and there will be deaths.
    Union Pacific's profits rose by over 50 percent last year. 
Now is the time for Union Pacific and federal regulators to 
invest in a just relocation of train traffic away from where 
people live, work, and play, and a conversion of the current 
tracks to a commuter light rail system. Until then, we need an 
emergency notification system, and an immediate moratorium on 
transport of hazardous waste through San Antonio. Thank you.
    Mr. Gonzalez. Thank you very much, Ms. Cushing. Next we 
have Igenio Rodriguez. Mr. Rodriguez. Thank you for your 
patience. And, again, I remind you that you have about one 
minute.
    Mr. Rodriguez. Madam Chair and Committee Members, my name 
is Igenio Rodriguez. I'm a retired firefighter of the City of 
San Antonio, and also have a compilation title, Fire and 
Hazardous Materials containment over the Edwards Aquifer 
Recharge Zone.
    Because of property rights, this issue requires multi-
agency cooperation. I respectfully request that prior to 
implementing any recommendation, that it be reviewed by local, 
state, and federal emergency personnel, and others. Please 
consider studying, or suggesting the possibility of a prudent 
standard related to buffer zones, occupancy types, density, 
land use, sensitive environmental protections, serious 
consideration for response time, natural or manmade terrain or 
hazards involved that can affect communication, safety, 
evacuation, and containment. A benefit analysis should be done 
regarding trucks versus trains, consumer cost, and warehousing.
    I commend you for having come to us, and for having the 
courage and diligence to bring this forth to us, and for being 
proactive, versus reactive. Thank you very much.
    Mr. Gonzalez. Thank you very much, Mr. Rodriguez.
    Ms. Brown. I want to thank you for making sure that we open 
it up to the public.
    Mr. Gonzalez. Harry Sandgill.
    Mr. Sandgill. I'll try to use one minute for Rail Labor. 
I'm a law professor, and 30 years of pro bono experience in 
rail safety matters. I have a creative solution. I take up the 
UP on their offer. Let's do something about not carrying hazmat 
through cities. Let's do something that hasn't been done for 
years. Let's go back to the STB, the successor to the ICC, go 
for a red flag or an embargo on ultra-hazardous materials, go 
together with rail labor, corporations, cities, local 
governments, and say the FRA is not doing it safely. We can't 
guarantee safety, and until we get it right, let's not carry 
this stuff. Let's just do this, and we'll do this for an 
interim period until we've gotten better safety protection 
across the board.
    This isn't hard. We should just go do it. I know that's not 
the human factors issue. This is possible. We ought to go down 
that path before.
    AAR members tried this in the Rail Classification cases, 
and the only reason they lost was despite the fact that they 
had the only testimony from Dr. Cards and Dr. Gregory, there 
was no opposition by the shippers at all. The ICC, the 
forerunner of STB, said look, the FRA says it's safe. We have 
no choice but to say you're still going to carry it. But if we 
all agreed it's not safe, and got the FRA to help us build the 
statistical case for why it's not safe yet, we can protect San 
Antonio, we can protect Minott, which has been blown up 
already, Scotts Bluff, which has been blown up twice, and 
protect against something else that no one has talked about, 
which is this.
    Three different federal circuits have held that railroads 
when they're negligent are not responsible in money damages for 
the damages they created to cities. That happened in Scotts 
Bluff, and in Minott, and the Baltimore Fire Tunnel. I think 
this committee knows about this, so this is a good creative 
step, we ought to take this path. Thanks very much.
    Mr. Gonzalez. Thank you very much.
    Mr. Sandgill. I'm going to be in Washington working with 
staff next week.
    Mr. Gonzalez. Appreciate it. Mary Ozuna.
    Ms. Ozuna. Hi, Mary Ozuna. I'm a member of South Central 
Community Planning Team in the city. I'm also the county 
precinct chair for 10-03, which is the area between the two 
railroad trails on South Alamo, and South Florez. I would like 
to look at this as a proactive. This has happened for many 
years. My cousin was in an accident 30 years ago, same area by 
Brackenridge High School, and survived. The person in front of 
her did not. But I'm also on the zoning--I get all the zoning 
notices from the city because I'm on the Community Plan.
    I offer--I thought the gentleman was over here, to someone 
from the railroad to be in our committee. The South Central 
Planning Committee is from South Alamo Street, which is a new 
city building, and it goes all the way to Toyota, right before 
it, on Military Drive. We get all zoning issues. I continuously 
ask if the Union Pacific has been invited, and I'm told 
generally no.
    I also would like to--I'd love to have somebody on the 
team. I also would like to suggest that zoning, city, state, 
whatever, needs to be looked at. There are individuals when I 
go to meetings who are just starting off with condos. That was 
mentioned earlier, and they're right by the tracks. That is 
ridiculous.
    I'm a product of a person that was in the railroad, came in 
1800s here, so I'm not against them, but I think we need to 
work together. And I think that some other issues can be done. 
I agree with Mr. Velasquez, who actually is a friend of mine, 
didn't realize he was going to say he's against moving the 
tracks. I don't think that's the answer.
    Taxpayers also do not want to pay more money for those 
ideas. I think in the modern-day time, we have a lot of 
opportunities that are available, and we just need to use our 
individual minds and work on it. Thank you very much for 
coming.
    Mr. Gonzalez. Thank you.
    Ms. Ozuna. Thanks, Charlie.
    Mr. Gonzalez. Betty Edward. Betty.
    Ms. Edward. Well, I'm going to talk about something 
entirely different. I am a Senior Advocate for seniors in San 
Antonio. I run a senior center, and the trains go right by our 
senior center. And I know that we're not ready when we have the 
next train wreck, and incident, and event in San Antonio. I 
know seniors are not ready, but my recommendation is a little 
bit different.
    The train and the railroads are the history of our country. 
They were here before we were here, and we built next to them. 
I would like to see something, and I don't know who can do it, 
whether it starts with Charlie, or whether it starts with Mike 
Villarreal, or where it starts, state, local, city, that we not 
build anything else next to the railroad tracks in our city, 
county, or state until all of these things that we talked about 
today, these safety issues, are put into place, or at least 
part of them, in order to prevent what will happen.
    On the day of October 17th, I was en route to a zoning 
meeting here in San Antonio to change the zoning on a piece of 
property right next to the railroad track in the neighborhood 
that I represent. The zoning was changed. We talked to the 
developer. We tried to get him to give the property back and 
not build there. We haven't made any headway with him, at all. 
He's going to build. They are going to bring families in. The 
families will bring children. The children love the trains. We 
know what's going to happen.
    At Dora Street, San Pedro and Dora, we've had--I've 
witnessed, personally, one death, two others have occurred 
there, because one person took their life on the railroad 
track, believe it or not, 46 years old, a homeless lady. One 
child wandered to the railroad track, two years old, was 
killed. And one young lady going to college was killed because 
she had her radio on, air condition on, she couldn't hear the 
train.
    Now we do have the railroad guards there now because of 
Mike Villarreal, and the railroad, of course, put them in, and 
we appreciate that. But I think that we need better guards at 
our tracks. We needs guards that will close completely so 
people will not attempt to go around them. They can't hear the 
train. And I'll tell you, if I hear the train, I know I better 
not cross that track.
    Mr. Gonzalez. Betty, the time is up.
    Ms. Edward. I know my time is, too. Okay. Thank you very 
much. Thank you for coming. Thank you, Chairperson Brown. We 
appreciate it. We hope something results from this meeting. 
Thank you.
    Mr. Gonzalez. Brad Smith.
    Mr. Smith. Congressman Gonzalez, thank you very much. And 
thank you for insisting that your committee be here. And I did 
speak with Chairwoman Brown earlier. I think she and I see eye-
to-eye regarding this. I am here today. I'm a political 
candidate more than once, but today my opponent spoke earlier, 
Mr. Hardberger. And so thank all of you that tried to get more 
attention to this.
    Obviously, not enough has been done, in my opinion. I 
honestly thought that Big Brother was already watching the 
transport of hazardous materials here. In other words, that one 
hand knew what the other hand was doing. I can promise you that 
this will be an issue.
    In my campaign, I'm calling for however many billions of 
dollars, 90 or 100 billion, since we've heard that that much is 
going to the Iraq war on a short-term basis, why can't we 
invest here the same amount of money. Our government can 
certainly borrow eight trillion dollars, so I don't think $100 
billion is too much to ask to come and take care of many, many 
safety factors, starting here with the railroad and 
transportation. And thank you for your time.
    Mr. Gonzalez. Sam Parks.
    Mr. Parks. My name is Sam Parks. I'm a commercial airline 
pilot, about to be forced into mandatory retirement in another 
year and a half. If you all want to do something about that, 
but that's another story.
    Ms. Brown. I signed onto that bill to extend it.
    Mr. Parks. I beg your pardon?
    Ms. Brown. I signed onto the bill to extend it from what, 
62 to 65 years.
    Mr. Parks. Bless your heart. I'll give you a hug later.
    Ms. Brown. All right.
    Mr. Parks. I took an active interest in the railroads after 
18 years of driving around a block crossing out in southwest 
Bexar County. On a website called ``My Rulebook.com,'' I 
downloaded their GCOR, General Code of Operating Rules. I also 
found out what state laws were applicable to blocked crossings, 
and after some $2,000 in fines, we finally got their attention.
    I also got tired of calling an 800 number, where I was 
talking to Kansas or Omaha, or someplace, and not a specific 
individual. In the last six months, I ran across an individual 
that's present here today named Travis Behnke, and that 
gentleman can make things happen, and I appreciate that.
    There's a lack of professionalism in the part of the 
operating crews. The conductor is in charge of the train, but 
the engineer is operating. The conductor is the youngest member 
of the crew, and there's an intimidation factor there. When the 
conductor says we shouldn't be doing this, and he says oh, no, 
we're going to do that anyway. And it's like a captain and a 
first officer relationship, where the first officer is in 
charge of the train, but the captain is operating it.
    I also have a problem with this dark territory. It's 
inexcusable to me that on the shift technology today with GPS 
tracking, that trains cannot be tracked exactly like all 
airborne aircraft over the air space today. Eighteen wheelers, 
companies track eighteen wheelers to the very mile as to what 
their location is.
    Laptop computers on each train with broad band or wireless 
access, the engineers could have a screen to give them 
situational awareness in their cab, much like we have on an 
airliner, which call it Terminal Collision Avoidance System, 
where we see every other airplane that's around us. We have a 
Situational Awareness. These engineers and operators of these 
trains have no idea where they are unless they knock down a 
switch.
    I mean, it's like the railroad is being dragged kicking and 
screaming into the 21st century. It's like they're still 
operating with two dixie cups and a string for a telephone.
    Mr. Gonzalez. Sam, I've got to go ahead and call you on the 
time.
    Mr. Parks. All right.
    Mr. Gonzalez. Thank you very much. I think you've brought 
out some very interesting facts. Charlotte Cable.
    Ms. Cable. Thank you so much for having us today. And you 
have come to the home state of Jessie Jones, whose visionary 
rail policies helped bring the U.S. out of the Great 
Depression. So our rail system is still the backbone of U.S. 
transport, and growing commuter systems.
    We do not want to regulate the rails out of business. There 
is a limit, however, which taxpayers will begin questioning, 
and then resisting federal funding for rail projects. After the 
films of the January 7th Louisville disaster, those tolerance 
limits have been raised.
    We do not envy your challenge to properly regulate the 
self-sustaining, safe U.S. rail system, but we must ask you to 
please do so to protect your constituents living in cities, 
counties, and states without the local authority to regulate 
that system that is both a great benefit, and great hazard to 
our welfare.
    So thank you for bringing this to San Antonio to hear our 
thoughts, and welcome to San Antonio.
    Mr. Gonzalez. Thank you very much, Ms. Cable. Nettie 
Hinton.
    Ms. Hinton. I'm Nettie Hinton, and I live at 509 Burlison 
Street, and that's the east downtown neighborhood, which is a 
historic district in San Antonio, Dignowity Hills. We are home 
to what had been the historic roundhouse, the first train 
station. We have now the intermodal yard, the east yards where 
a UP employee has died in the yards because of a safety mishap. 
We also are the home of the engineer repair facility for Union 
Pacific.
    We were there before the railroads came, because they came 
in 1877, and we were founded long before that as a community. 
We have lived since that time with health and safety issues 
from the railroad, including the rail cars blocking three major 
arterials in our community, Pine Street, Hackberry Street, and 
LeMar Street, as they're waiting to get into the yards.
    We understood that that meant that police, fire, and EMS 
would not be able to have access to our community, nor to the 
Bowden Elementary School, and the Ella Austin Community Center, 
because of the location of the railroad. But we are now living 
with an additional fear factor, and it comes because we know 
that the benzene, and the chlorine, and the acids are passing 
through our community. And we know of the deaths that have 
resulted because of the derailments. And we are asking that you 
do something about those toxic materials running through that 
main line. They have to be relocated.
    We are going to host, hopefully, Texas A&M playing Ohio 
State on March 24th at the regionals at the Alamo Dome. I would 
hate for a tragedy to occur during March Madness, or, for that 
matter, during the month of April when our families are on 
Broadway watching the Battle of Flowers and Fiesta Flambeau, 
but that's exactly what can happen in my community in San 
Antonio because of the main line. Thank you.
    Mr. Gonzalez. Thank you very much, Ms. Hinton. I yield back 
to the Chairwoman.
    Ms. Brown. I want to thank you. I want to thank all of the 
witnesses for your testimony, and we will take it back, and 
take it under advisement. Thank you, Congressman, for inviting 
us to come here, and unless there's further business, this 
subcommittee will stand adjourned. Thank you very much.
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
</pre></body></html>
